<html>
<title> - NO CHILD LEFT BEHIND: THE NEED TO ADDRESS THE DROPOUT CRISIS</title>
<body><pre>[Senate Hearing 107-780]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-780

      NO CHILD LEFT BEHIND: THE NEED TO ADDRESS THE DROPOUT CRISIS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

            EXAMINING THE NEED TO ADDRESS THE DROPOUT CRISIS

                               __________

                   NOVEMBER 1, 2002 (LAS CRUCES, NM)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



83-064              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  

                            C O N T E N T S

                               __________

                               STATEMENTS

                        Friday, November 1, 2002

                                                                   Page
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico.     1
Meuer, Kristine, Ph.D., Director, School Health Unit, New Mexico 
  Department of Education; Karen Sanchez-Griego, State 
  Coordinator ENLACE Program; McClellan Hall, Executive Director 
  of the National Indian Youth Leadership Project in Gallup......     3
Rounds, Stan, Superintendent for Hobbs Schools; Ron Haugen, 
  Superintendent, Gadsden Independent Schools; Everette Hill, 
  Youth Development Inc., Albuquerque; Beverly Averitt, Espanola 
  High School Principal..........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Ms. Muerer...................................................    43
    Ms. Sanchez-Griego...........................................    45
    Mr. Hall.....................................................    47
    Mr. Rounds...................................................    50
    Mr. Haugen...................................................    52
    Mr. Hill.....................................................    53
    Ms. Averitt..................................................    57

                                 (iii)

  

 
      NO CHILD LEFT BEHIND: THE NEED TO ADDRESS THE DROPOUT CRISIS

                              ----------                              


                        FRIDAY, NOVEMBER 1, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:00 a.m., in the 
School Board Hearing Room, Las Cruces Public Schools, 505 S. 
Main, Las Cruces, NM, the Senator Bingaman presiding.
    Present: Senator Bingaman.

                 Opening Statement of Senator Bingaman

    Senator Bingaman. I would like to begin by thanking the 
Chairman of the Health, Education, Labor, and Pensions (HELP) 
Committee, Senator Kennedy, for agreeing to convene this field 
hearing to discuss an extremely important topic--dropout 
prevention.
    Education has always been a top issue of debate in 
Washington. Recently, the debate has focused on crucial issues 
such as achievement gaps between disadvantaged students and 
their peers, teacher quality, and parental choice. I support 
putting these issues on the top of the agenda--on the Federal 
as well as State and local levels--but not enough attention is 
being given to the issue of dropout prevention.
    The Problem is dropout statistics. The most recent data 
shows that more than 10 percent of the young adult population 
dropped out of school from 1999-2000. Among Hispanics, the 
percentage was over 27 percent.
    In October, 2000, approximately 3.8 million young adults 
were not enrolled in a high school program and had not 
completed high school. Over 3,000 young people drop out of our 
high schools and middle schools each school day. Nearly half a 
million students in grades 10 through 12 drop out of school 
each year.
    Although we have shown some progress in recent years, New 
Mexico remains at the bottom of the list nationally in terms of 
dropout rates, 46th in the Nation in 1998-99. During the 1999-
2000 school year, almost 6,000 students dropped out of school 
in New Mexico.
    As is the case nationally, the problem is magnified for 
certain groups of students in our State. The Hispanic dropout 
rate is twice that of whites and the Native American dropout 
rate is one and one half times that of whites. 7.8 percent of 
Hispanics; 5.8 percent of Native Americans; 3.9 percent of 
whites. Despite the distressing dropout problems in our State, 
there has been little concerted effort to provide or coordinate 
effective and proven dropout prevention programs for at-risk 
children.
    Federal Efforts to Address the Problem:
    On the Federal level, I have worked to secure attention and 
resources to address this issue for many years. At my request, 
in 1996 and 1997 a group of nationally recognized experts 
assembled to help find solutions to the particularly high 
dropout rate among Hispanic students. The Hispanic Dropout 
Project found widespread misunderstandings about the underlying 
causes of high dropout rates, and a lack of familiarity about 
effective dropout prevention programs has prevented schools 
from implementing programs to decrease dropout rates.
    In the fiscal year 2001 budget, we were able to secure a 
small pot of Federal funds to create the Dropout Prevention 
Demonstration Program, modeled on the recommendations of this 
panel of experts. Under this program, 10 to 15 awards of 
$200,000 to $500,000 were given to State Educational Agencies 
and Local Educational Agencies to strengthen and expand 
effective dropout prevention programs. Gadsden Public Schools 
was one of the recipients of those awards. We look forward to 
hearing about their progress later this morning.
    The large education bill signed into law earlier this year, 
The Leave No Child Left Behind Act, included legislation 
authorizing an expansion of this program. This program 
authorizes $125 million in Federal funding for districts to 
implement proven dropout prevention strategies. The bill also 
provides for the creation of a national clearinghouse to 
disseminate information on research, best practices, and 
available resources to help schools implement effective school 
dropout prevention programs, and establishes a national 
recognition program to spotlight schools that do successfully 
reduce their dropout rates.
    We also were able to secure authorization to expand the 
Smaller Learning Communities Program. Using funds from this 
program, at least half of the high schools in Albuquerque have 
implemented Smaller Learning Community or schools-within-
schools programs. These programs help large high schools to 
create more individualized learning environments for students. 
There are many benefits to these programs, one of which is 
reduced dropout rates. For example, Cibola High School, in 
Albuquerque, used just such a focused effort and a small 
Federal grant to reduce its dropout rate from nine percent to 
less than two percent in just 4 years.
    We also secured authority to create an Advanced Placement 
program that for the first time will provide Federal funds on 
the local level to expand access to Advanced Placement 
Programs. This program is not directed toward dropout 
prevention per se, but rather focuses on raising standards at 
the high school level so that students are better prepared for 
a postsecondary education. Nevertheless, as the witness from 
the Hobbs School District, Superintendent Rounds will testify, 
when integrated into the curriculum, even in the early grades, 
this program can have a positive impact on dropout rates.
    As many of you know, the No Child Left Behind Act also 
included new expanded accountability for student performance. 
The primary focus of this new accountability system is improves 
student performance on statewide assessments.
    The increased focus on assessments has led many to fear 
that dropout rates will increase as States strive to meet their 
academic performance goals. There is a real danger that kids 
that aren't doing well on the tests will be the ones most 
likely to drop out. To respond to these real concerns, we added 
dropout reduction as a factor that must be considered when 
judging school performance. But we must do more. We must also 
provide schools with the resources that they need to implement 
effective programs.
    Need for Additional Resources:
    So far we have secured some funding for each of the Federal 
programs that I have outlined and last year were able to secure 
major increases for the core Federal programs impacting poor 
students, including the Title I program and the Teacher Quality 
programs, but the President's budget provided virtually no 
increase in education funding and zero funded the Dropout 
Prevention and Smaller Learning Communities Programs. This is 
extremely short-sighted.
    The economic impact of the dropout problem is real. A 
recent study found that graduating from high school can 
increase a person's earning by $1.60 per hour while each year 
of work experience only increases earning by 7 cents per hour. 
But education can also bring other less tangible benefits to 
those pursuing it and the nonmonetary losses flowing from 
dropping out can be real and devastating to the individual and 
to society at large. We must work together to address this 
issue.
    It is my pleasure to introduce the many distinguished 
witnesses who have traveled here today to share their wisdom on 
this topic. All of the witnesses have dedicated themselves to 
helping children succeed. I thank them for their willingness to 
come today and for all of their good work. Many of the 
witnesses will present testimony about successful efforts on 
the State and local level directed at dropout prevention. All 
of the witnesses will share their perspectives on how we can 
work together to more adequately address this pressing problem.

 STATEMENT OF KRISTINE MEURER, Ph.D., DIRECTOR, SCHOOL HEALTH 
UNIT, NEW MEXICO DEPARTMENT OF EDUCATION; KAREN SANCHEZ-GRIEGO, 
  STATE COORDINATOR ENLACE PROGRAM; McCLELLAN HALL, EXECUTIVE 
  DIRECTOR OF THE NATIONAL INDIAN YOUTH LEADERSHIP PROJECT IN 
                             GALLUP

    Senator Bingaman. Dr. Meurer.
    Ms. Meurer. Good morning, I am Dr. Kristine Meurer, 
Director of the School Health Unit of the State Department of 
Education. It is a privilege for me to be here representing the 
State Department and State Board of Education at the invitation 
of Senator Jeff Bingaman. We look forward to providing 
testimony on this important topic of dropout prevention and the 
Senate's Health, Education and Pension Committee.
    State Superintendent of Public Instruction, Michael Davis, 
sends his greeting and an apology for being unable to attend 
this hearing. The State Board of Education is also meeting 
today in Santa Fe.
    We truly appreciate the work that Senator Bingaman does on 
behalf of New Mexicans. In particular, he has become a champion 
of many programs to improve public education and the 
educational outcomes of our children.
    A specific area of his attention and concern has been 
students who drop out of school before earning a diploma. He 
has been diligent in calling this concern to the attention of 
educators and the public, and has been a leader in seeking and 
securing resources to address the needs of students at risk of 
dropping out.
    The State Department of Education wishes to go on record in 
support of Senator Bingaman's efforts to continue to fund the 
Federal dropout program that he has been so instrumental in 
establishing. We hope that our testimony today will reinforce 
the fact that the concerted efforts of policymakers and 
educators can have a tremendous positive impact on school 
completion.
    The primary focus of my remarks will be to provide an 
overview of the status of the dropout problem in New Mexico. 
Those of you who are familiar with the topic are aware that 
there has historically been a good deal of confusion and 
frustration in understanding and interpreting dropout 
statistics due to the wide variety of methods that were used to 
collect, compute and report this data. To remedy this problem, 
the National Center for Education Statistics (NCES) has 
attempted during the past two decades to establish and get all 
states to agree to adopt a standard methodology to report 
dropout data. New Mexico adopted the NCES standards and 
definitions in 1992-93, and is one of 37 states currently using 
this methodology to report results. This standardization 
ensures the reliability and consistency of New Mexico dropout 
data for the past decade.
    The method used by New Mexico to report statistics is 
called an ``event'' rate. This statistic represents the 
students who drop out of school during a specific school year 
and don't re-enroll without completing a high school program. 
This measure provides important information on an annual basis 
of how effective we have been in keeping students in school.
    So how has New Mexico fared in the past decade using NCES 
dropout standards? As you can see from our table, our dropout 
rate in 1992-93 was 8 percent. Over the next 2 years it climbed 
to 8.7 percent. Senator Bingaman and State policymakers 
expressed great concern about this increasing trend and 
challenged educators to better address the needs of students at 
risk of leaving school prematurely.
    As a result of this public attention and their own concerns 
about increasing dropout rates, educators began to focus more 
intently on solutions to this problem. Many schools and 
districts developed and implemented strategies to identify and 
intervene with students at risk of dropping out, and to attract 
dropouts back into their programs. At the same time, the State 
Board of Education and the State Legislature collaborated on a 
proposal to add an ``at risk'' factor to the public school 
funding formula to increase district resources to support 
intervention programs.
    State law established the at-risk factor in 1997-98, and 
schools used this resource to expand existing programs and 
establish new programs. The increased attention, focus and 
resources are working. New Mexico's dropout rate has been 
steadily declining since 1994-95. The reductions have been 
significant, as you can see from this table today. It is my 
privilege to release for the first time the statewide dropout 
rate for the 2000-2001 school year. The dropout rate is 5.3 
percent. This is the lowest dropout rate since New Mexico began 
reporting dropout rates in 1977-1978. The 2000-2001 complete 
dropout report with data on the performance of all schools and 
districts in the State will be released in December 2002.
    As significant as the percentage reduction has been since 
1994-95 the actual numbers have even more impact. The 1994-95 
rate of 8.7 percent represents 7,792 students who dropped out 
that year. The 5.3 percent rate for 2000-2001 represents 5,095 
students. In other words, New Mexico educators have been 
successful in developing strategies and programs to keep 2,697 
students in school that would have been dropouts just 7 years 
ago.
    The NCES also uses US census data to report ``status'' 
dropout rates, which measure young adults ages 18-24 who are 
not currently enrolled in school and who have not received a 
high school diploma or GED. This statistic has also improved 
significantly in New Mexico since 1994-1996, 78.8 percent, 
compared to 83 percent in 1998-2000. While this is still 
slightly below the national completion rate of 85.7 percent, 
New Mexico now out performs our neighboring states of Colorado, 
81.6 percent, Texas, 79.4 percent, and Arizona, 73.5 percent, 
in high school completion rates.
    Schools have also made considerable progress in reducing 
the dropout rates for ethnic populations with historically high 
dropout rates. The dropout rate for Native Americans in 2000-
2001 is 5.9 percent, a reduction from 8.6 percent in 1994-95. 
Schools have also had success in impacting the area where 
dropout rates have always been the highest in New Mexico, 
Hispanic students. The rate for these students has fallen from 
10.9 percent in 1994-95 to 6.7 percent in 2000-2001.
    This is extremely good news and cause for congratulations 
to the New Mexico educators who have been instrumental in this 
turnaround. But there is still a great deal of work to be done 
to ensure that all students complete a high school program and 
have the opportunity to pursue a career or further education 
options of their choice.
    I hope you will have the opportunity today to hear directly 
from some of the practitioners responsible for these positive 
statistical trends. While policymakers and State and district 
administrators can help create the climate for successful 
dropout prevention programs, it is the dedication of those who 
work in the ``trenches'' that keep kids in school. Credit 
should also be given to those thousands of ``at-risk'' students 
who have overcome challenges and persevered to complete their 
high school education.
    Before concluding my remarks, I would like to spend a few 
minutes reviewing the current priorities of the State Board and 
the State Department of Education in addressing the needs of 
high-risk students.
    The State Board continues to place great emphasis on early 
literacy as a primary strategy in ensuring success in any 
student's mid-school and high school years. The Board is 
committed to the goal of having all students reading at grade 
level by grade three.
    Funds made available to the State under the ``Reading 
First'' program of ``No Child Left Behind'' (the Federal 
reauthorization of ESEA) will provide our State with over $8 
million this year to support literacy in grades K-3. We are 
proud that we are among the first ten States to be approved by 
the U.S. Department of Education for this program due to the 
quality of our application, and we are confident that research-
based approaches to literacy will help us reach our grade three 
goal.
    The State Board has also placed a priority on student 
completion by including recommendations for high school reform 
in its 2003 legislative package. The Board is highly supportive 
of changes in law, regulation and practice that will give 
greater flexibility to schools in designing programs to meet 
the diverse needs of their students. This will allow schools to 
better align coursework and graduation requirements to post 
high school pathways selected by students.
    The Board is also proposing programs that will provide more 
stability and consistency when students wish to get concurrent 
high school and college credit by taking a course at a local 
post secondary school. In addition the Board is proposing a 
``middle college'' pilot that will allow students to work on 
both a high school diploma and an associates 2-year degree in a 
compressed period of time.
    The Board is also looking for opportunities for students to 
earn credit through high quality virtual schooling options.
    I would also like to briefly mention a dropout prevention 
program that is currently being piloted through a partnership 
between the State Department of Education and the Department of 
Health. Senators Bingaman and Domenici have been instrumental 
in providing Federal funding for this pilot. I have been 
personally involved in both the development and implementation 
of this program, and am highly optimistic that this will prove 
successful.
    The dropout prevention pilot project's name is PASS-
Positive Assistance for Student Success. For the next 2 years 
three high schools in New Mexico, Cuba, Belen and Espanola 
Valley High Schools, are each receiving $183,000 to participate 
in the pilot project.
    The pilot project is providing direct support to 9th grade 
students who are struggling with grades, attendance or personal 
issues, which make them more likely to drop out of school. The 
goal of the program is to provide support to students and their 
families early in their high school education so that they are 
less likely to see dropping out of school as their only option. 
Struggling students are referred to case managers who work with 
the student, their family and the school community to identify 
problems and create positive solutions to help the student 
succeed. The case managers also help students and families find 
other in-school and community services that will support them. 
The funds are also being used to develop support services in 
each pilot school such as tutoring, mentoring, and mental 
health counseling for at-risk students.
    The coordinator of the PASS program, Nissa Patterson, is 
here today. She provides ongoing technical assistance and 
training to the pilot schools and the case managers.
    In summary, we have accomplished a great deal, but there is 
still much work to be done to ensure that all students complete 
high school. I will be glad to respond to questions or to 
obtain any additional information requested by the committee. 
Thank you again for the opportunity to present this testimony 
on behalf of the State Board and State Department of Education.
    [The prepared statement of Ms. Meurer may be found in 
additional material.]
    Senator Bingaman. Ms. Griego.
    Ms. Sanchez-Griego. ENLACE ``ENgaging LAtino Communities 
for Education'' is a regional and statewide collaborative for 
the purpose of leveraging educational impacts for success among 
Hispanic youth. ENLACE in New Mexico is a movement embraced by 
the community to strengthen a collaborative effort to affect 
our educational pipeline. 45 percent of Hispanic students in 
the State of New Mexico do not graduate from high school, 
therefore, not affording them the opportunity to obtain a 
higher education. Fifty percent of Hispanic students on New 
Mexico higher education campuses do not receive their degrees.
    New Mexico received W.K. Kellogg Foundation funding in the 
amount of $49 million for 4 years to address Hispanic higher 
education.
    125 institutions applied for the initial planning grant, 
with 30 of the 125 received planning funds based on this 
proposal. New Mexico was one of the 30 to receive $100,000 for 
the planning phase.
    The planning moneys were to be used to determine barriers 
to educational success, create and establish well-designed 
programs that would assist Hispanic students in the State of 
New Mexico to graduate from high school and go on to college. 
All programs system address the K-16 pipeline.
    Programs were developed with the partners in our community: 
Parents, families, business, nonprofit organizations, community 
grass-roots groups, students, professors, teachers, educational 
institutions, administrators, and New Mexico charity groups. 
This recognizes that education is everyone's business.
    Out of the 30 States which received a planning grant, only 
seven States were given implementation grants. New Mexico was 
chosen as one of the seven States.
    There are four grants in New Mexico, one in the southern 
part of the State, Las Cruces; northern part, Santa Fe, 
Espanola, etc; and central New Mexico, Albuquerque; as well as 
an overall State grant, which encompasses all of New Mexico.
    Our goals are to make systemic changes in our educational 
systems that are positive and productive for Hispanic students.
    We are also looking at national policy changes in reference 
to Hispanic students and the future of their education.
    In the creation of this statewide collaborative model, our 
goal was to have a strong impact statewide, and this is 
currently being done. We have seen significant potential for 
the future in terms of making history in statewide educational 
development with others. It took several leaders from across 
our State with higher education leading the charge to have a 
dialogue to work toward programs that are best for Hispanics in 
our State kindergarten through college, and do this with 
limited funding.
    Together we are sharing limited resources, which would 
maximize our efforts to impact our youth. Our collaborative 
efforts have already began the process in creating change not 
only locally and regionally in New Mexico, but at State and 
national levels as well. We, through ENLACE, are caring for the 
``WHOLE CHILD'' in walking the talk of Hispanic cultural ways, 
values and including families as part of the educational 
structure of institutions.
    Our focus deals with K-16 education, policy analysis 
revision and reform;
    Leadership development at student, family, community, and 
institutional levels;
    Enhance the statewide effectiveness of communication and 
dissemination throughout the K-16 pipeline focused on sharing 
and refining ``best practices'' and;
    Close coordination of process and outcome evaluation on 
three levels, cluster, statewide, local projects, and to 
improve educational outcomes for all New Mexico Hispanics.
    New Mexico is the only statewide collaboration nationwide 
and was chosen due to our state's vision and thinking outside 
the box. Many Hispanic children and families would not have 
access to ENLACE, via funding without great people in our State 
who had a vision.
    Statewide, all projects have three distinct yet 
interlocking programs to reach our goals and fall in line with 
President Bush's Executive Order 13230, in the development of 
an advisory Commission on Educational Excellence for Hispanic 
Americans, to address such concerns. The development of ENLACE 
came before the President's Executive Order.
    Programs to reach our goals and assist in a positive effect 
on Hispanic dropouts in our State are being accomplished via 
the following components.
    Education Access Rooms (EAR's) are being utilized as 
extensions to our local schools in local community centers, 
where students receive much needed credits. Education Access 
Rooms use distance-learning resources, tutors, and parent 
involvement. We target 9th and 10th grade students at risk of 
dropping out. These centers work closely with these students' 
families.
    Family centers are currently located at three high schools 
and we are in the process of development of these centers at 
each high school across the State. These centers were the 
brainchild of grass-roots community activists Maria Hines and 
Christina Chavez-Apodaca. They provide a multitude of services. 
But mostly, they empower families in the school's surrounding 
community to have a voice in the education of their children, 
at the same time as providing a unique place where families can 
come and share their concerns about our schools, one-on-one, 
with other parents. The Family Centers also have a strong 
relationship with bringing students who have dropped out back 
to school. Parents receive lists of students who are considered 
dropouts from the principal and/or are not attending classes. 
These parents then go door to door, within the community, 
speaking to students and parents on these lists, asking them 
why their students are not in school and how they can assist in 
getting the students back in school. Our parents call these 
``knock and talks.'' A significant number of students who have 
dropped out have returned back to school because of these 
efforts. Parent Universities are helping parents become strong 
advocates and coaches for their children.
    ENLACE has a variety of retention components within the 
grant, and the retention efforts stem from K-16. Our students 
have mentors at all levels, support on campuses through course 
development such as: Chicano Studies classes, outside course 
work at the neighboring community centers, one-on-one support 
to assist with professors, financial aid, and leadership to 
assist in tackling the bureaucratic systems.
    In order to address the needs of Hispanic students 
throughout our educational pipeline, we have targeted key 
points of the educational systems to intervene and assist 
students. Beginning in the middle schools, mentors are provided 
for at-risk students. In the high schools, Family Centers/
Parent Universities will assist the schools and families to 
connect to better serve students. Chicano Studies courses and 
Latino literature at all ENLACE target high schools will 
provide culturally relevant teaching and empower Hispanic 
students to excel in their studies. AVIDS courses have also 
been added. At out institutions of higher education throughout 
the State Early Warning Intervention systems are in place to 
assist incoming freshmen maneuver through the educational 
system and succeed.
    A very unique component in which university students 
participate in mentoring ``at risk'' middle school students 
provides one-on-one relationship building, provides a 
supportive environment for students to obtain academic success, 
make a unique connection, encourage leadership, and provides 
support for these students to stay in school.
    Over 1500 students from across New Mexico have received 
support from ENLACE.
    As we know, the success of student retention greatly 
depends on good teaching and teachers. Therefore, we have 
developed the Hispanic Teacher Pipeline to increase the teacher 
pool in New Mexico and provide opportunities within the 
pipeline for Hispanics young and old to obtain a higher degree 
in the field of teaching.
    In an effort to ensure that our teacher population reflects 
the cultural wealth and diversity of New Mexico, Hispanic 
students will be exposed to teaching as a career as early as 
elementary school and on through college. The Pathways to 
Teaching program will encourage local Hispanic students to 
pursue teaching by providing them with shadowing experiences, 
workshops, and scholarship assistance. Additionally, 
educational assistants are encouraged to finish their degrees 
to return to work in New Mexico.
    As we know, in order to make systematic changes for 
Hispanics in the State of New Mexico, we need to have data both 
qualitative and quantitative that show how the effects of the 
ENLACE movement are in creating better more productive citizens 
in the State of New Mexico. This is a strong component, and 
these results will be shared with the main stakeholders in New 
Mexico as we progress to fight for legislative and national 
policy issues for Hispanics in our State as well as in the 
Nation.
    Given the mission of promoting greater access to higher 
education, retention, and graduation from higher educational 
institutions for Latino/Hispanic youth, ENLACE is organized to 
address policy at the institutional, local, State and Federal 
levels. To achieve this, the ENLACE initiative identifies the 
institutional practices of barriers that interfere with student 
recruitment achievement, retention and graduation. In addition, 
we are addressing local school district policies that can 
facilitate the goals of the ENLACE initiative. We are working 
with local partnerships as catalysts for surfacing and 
informing State policymakers as they grapple with budget and 
policy priorities. We are informing State policymakers at the 
State level, where much of the education policies are 
generated. The collective lessons learned from the 13 ENLACE 
sites nationwide will be instrumental as the initiative 
collaborates with other national entities to inform both the 
reauthorization of the Higher Education Act, as it relates to 
unique and specific needs of Latino/Hispanic students, and the 
implementation of the Elementary and Secondary Education Act 
(ESEA). We are providing services and support to students 
within the K-16 educational system. ENLACE is the first 
initiative with a national impact and will have documented 
results about how to support the educational success of Latino/
Hispanic students nationwide.
    This Nation is in a crisis in reference to Hispanic/Latino 
education, and it has a direct impact on our future economic 
health. Therefore, financial and legislative support nationally 
is greatly needed to sustain the efforts ENLACE has made in 
retaining dropout students and moving them on to higher 
education. We applaud the Kellogg Foundation for their 
initiative to address dropout's retention and access to higher 
education for Latino youth. We look forward to work with the 
Federal Government to increase educational access for Latinos.
    [The prepared statement of Ms. Sanchez-Griego may be found 
in additional material.]
    Senator Bingaman. Mr. Hall, go right ahead.
    Mr. Hall. Thank you for this opportunity. My name is 
McClellan Hall. I am the founder and executive director of the 
National Indian Youth Leadership Project.
    Senator Bingaman. You might pull that microphone a little 
closer so everyone in the audience can hear you. Mr. Hall. My 
name is McClellan Hall. I am the founder and executive director 
of the National Indian Youth Leadership Project. It is a 
national nonprofit. It is based in Gallup. I've been an 
educator for over 25 years now. And----
    Senator Bingaman. Let me ask you, do we have a copy of your 
testimony?
    Mr. Hall. Yes. I had some difficulties yesterday, but I 
have a copy here. I am going to try to summarize.
    Senator Bingaman. Go ahead, please.
    Mr. Hall. OK. The National Indian Youth Leadership Project 
is a nonprofit youth development organization that's been 
working with young people for over 20 years. Our work is based 
on a coherent set of principles, devised to help young people 
develop skills and competencies to become capable individuals. 
Although we have been funded by various Federal and State 
agencies to do ``prevention,'' whether it is specifically 
targeted toward alcohol and tobacco and other drugs, dropout 
and other perceived deficits, our programs all include the same 
basic components of outdoor adventure, service and service 
learning combined with a strong cultural awareness component.
    Our approaches, although they are primarily targeted to 
Native American youth, have been used with mixed populations in 
various venues have been successful in building resiliency, 
self-confidence and self-efficacy.
    In 2002, we are recognized by the Center for Substance 
Abuse, with the Exemplary Program Award for Project Venture 
approach. This program is typical of all NIYLP programs. In our 
approach to prevention, we never call our programs ``prevention 
programs'' and we don't directly talk about the topic that we 
are working to prevent. Project Venture focuses on positive 
alternative activities, which engage young people in many roles 
in the community, encourage participants to stretch beyond 
their self-imposed limitations, and develop skills and foster 
resiliency.
    Our evaluation data places us among the top four or five 
programs in a recent national cross-segment evaluation study 
conducted by CSAP. In addition, we were found to be the most 
effective program, of all those studied, that were serving 
Native populations. As a result of our national recognition, we 
now have nearly 20 replication sites across the United States, 
and eight of those are here in New Mexico.
    One of our most powerful outcomes in our evaluation data is 
school bonding, so the relevance here should be clear. We work 
closely with the schools to recruit young people and work in 
the schools, and we have had a seven-year partnership with the 
Gallup McKinley schools, which has been challenging, to say the 
least. Our alternative school programs, public, tribal and BIA 
schools, as well as other programs, also offer accessibility to 
a number of young people to our programs. However, we recognize 
that large numbers of disaffected young people leave school 
before graduation for many of the same reasons that are cited, 
for involvement in alcohol, tobacco and drug abuse.
    In our experience, going back nearly 20 years, a number of 
factors influenced the relationships that young people from so-
called minority groups have at those schools. I am going to 
skip around here a little bit. In Native communities, which 
have the highest dropout rates in New Mexico, as well as 
nationally, when I was the director of the Alternative School 
Program for the Cherokee Nation in Oklahoma, our dropout rate 
was 70 percent of the public schools in Northeastern Oklahoma. 
And when I came out to the Navajo reservation about 20 years 
ago, I found that it is not a lot different. And it is really 
difficult to document and get actual data on this, because the 
Gallup Mckinley schools cannot even provide what their dropout 
rate is for Native kids.
    Anyway, we have noticed some trends and can offer some 
recommendations and strategies that will increase the 
probability that young people will complete high school. I have 
included some things here that schools could do immediately to 
affect the dropout rate. And the first one I suggested was 
service-learning programs. Student-driven projects where 
communities needs are researched, assessed and projects applied 
with extensive student input are a proven effective way of 
engaging young people in issues that are meaningful to them, 
and get them to invest themselves in the community. Youth voice 
should not be seen as optional or irrelevant. Quality service-
learning opportunities have strong connections to the academic 
curriculum and support the culture and the community. 
Intergenerational projects which link youth and elders have 
great potential for authentic learning opportunities, as well 
as building connections to the culture and the community. 
Conversely, alienation is seen as a major factor in youth 
violence, vandalism and general apathy in our communities.
    I wanted to comment that Senator Wellstone recently 
introduced a request to Congress for supplemental funding for 
teacher training around service-learning, and I don't know what 
the status of that is, but I wrote a support letter for that.
    Another suggestion that I included was quality after-school 
programs. One trend that some people in our communities have 
observed is schools have increasingly become more like the 
prison industry, even adopting some of the same vocabulary, 
attitudes and architecture. Pressures to raise standardized 
test scores have eliminated many of the little things that 
schools could do, and have done, to make young people feel 
comfortable. Economic realities have eliminated many of the 
courses, arts, music and other, that young people used to enjoy 
as electives. Other extracurricular activities have been 
limited or curtailed due to budget constraints. Budget cuts 
often limit the transportation options, which affect after-
school possibilities. In many rural areas, communities simply 
cannot afford to run extra buses.
    Many teachers are overworked and underappreciated, and 
often cannot take on one more program. However, after-school 
programs are the only time that teachers and students in need 
of help can find the time to try the alternative approaches and 
have more one-on-one opportunities. The daily routine, for most 
teachers, does not allow individual attention. A quality after-
school program could make the difference between success and 
failure. In many cases, the perception is that students are 
blamed for the failures of the school system. And the teachers 
assume a punitive attitude toward so-called minority group 
students, Especially where Native youth who come to school 
speaking a language other than English are perceived to be 
holding the school back in terms of test scores, reading 
levels, etc.
    Another component of our programs, Adventure Programs, 
Reconnecting with the Natural World. Among other things, our 
programs have been very successful in what evaluators call 
``school bonding,'' which includes improved attendance, reduced 
disciplinary incidents, improved grades and increased 
involvement in school-related activities. In our experience, 
young people have a different perception of school when they 
have shared experiences with teachers outside the classroom 
walls. The natural world provides contacts, for activities that 
challenge young people to stretch beyond self-imposed 
limitations.
    So I have a couple others here that I have listed that were 
not in the original document. Partnerships between schools and 
community-based organizations can be an effective way to 
approach the dropout problem; alternative school programs, 
obviously, we need more of those, and special programs, such as 
the one described in the first presentation, where a one-on-one 
case management approach is taken. But if it is only going to 
be a one- or two-year grant to do such a program, then I 
question how we can sustain that. It's raising expectations 
that may not be able to continue.
    The Conceptional Foundations of our approach is what I have 
listed here. Our programs are holistic, incorporating physical, 
cognitive, physiological and spiritual development. They are 
experiential, they involve learning by doing. They are 
structured risk and challenge connected to the natural world; 
student and youth centered; developmentally appropriate; 
culturally relevant; focus on building life skills and 
relationships. There is high coherence and intensity of 
interventions.
    I am going to skip over a couple of the sections here, but 
the summary of major findings from the cross-site evaluation 
study and prevention programs I think is really interesting. 
This was done by Dr. Fred Springer of EMT Associates. As youth 
age, levels of risk and protection shift considerably. The 
findings on risk, protection and substance abuse and the age of 
youth reveals a consistent pattern. As young people move 
through the adolescent years, there is a steady movement away 
from the protective factors toward the risk conditions in most 
of the factors. The movement is greater in family bonding, 
school bonding, and peer attitudes of those factors that refer 
to the social environments to which young people build 
attachments as they mature. In my assessment, this means that 
as young people move through the adolescent years, family and 
school become less influential, and the peer group becomes 
stronger.
    This presents a challenge to schools to be aware that they 
need to do more to attract and bond with young people. However, 
the trend with schools, in our experience, seems to be to 
toughen policies and become less flexible at this critical 
juncture. Gender also plays an important role in risk 
protection and substance use. Generally, the summary here is 
that young men need to be bonding with positive influences at 
this critical age, yet most of the accessible role models seem 
to be fairly negative, according to the media, music, etc.
    Connectiveness, again, is the major protective factor 
against substance abuse. Positive behavioral outcomes among 
young people reflect a tight interweaving of external and 
internal protective factors. Connectiveness to family and 
schools forms the core of this protection. Meaningful 
involvement is the key to connectiveness. Schools cannot--the 
school environment can serve as a powerful protective factor 
against substance abuse, and will increase the likelihood of 
staying in school, if the school is providing a positive 
environment.
    The schools have to welcome young people and provide a 
nurturing environment. In reality, youth perceives schools to 
be increasingly rigid and inflexible. In our conversations with 
Dr. Fred Springer, the most important factor that he found, in 
extensive analysis of prevention programs across the country, 
was the concept of connectiveness. And this seems to be the 
single factor that comes through in reading through the study. 
The efforts that were successful in preventing alcohol, 
substance abuse, dropout, etc, had the concept of 
connectiveness in common.
    I would just summarize by suggesting that we have a 
perfectly designed system that is currently giving us the 
results that we are currently getting. The only way we can 
really improve schools is to make education a true priority, 
and the President's budget and his logic doesn't necessarily 
reflect that, in my opinion. I really feel that we have to make 
education a priority and put our money where our mouth is. And 
I appreciate your efforts to do that. Thank you very much.
    [The prepared statement of Mr. Hall may be found in 
additional material.]
    Senator Bingaman. Thanks to all of you for your excellent 
testimony. Let me ask a few questions that occur to me here as 
we start the discussion. It strikes me that there is a lot of 
disagreement and misunderstanding, when we start citing 
statistics, about the extent of the dropout problem. And let me 
give you my simplistic view of it, then, Dr. Meurer, maybe you 
can explain your more sophisticated view.
    There are sort of three ways you can look at these 
statistics. One is the question of how many students drop out 
each year. A second statistic, of course, or a second way to 
look at it is, how many students drop out during the period 
between the 9th and the 12th grade. During those 4 years, a 
percent of those students leave school. And then a third, maybe 
even more inclusive, in the sense that it is, of all the 
students begin school, how many of them finish. And I gather 
when McClellan Hall talks about 70 percent of Native Americans 
are dropping out, he's talking about that last category. He is 
saying that 70 percent of the kids who start school, 70 percent 
of the Native American kids who start school do not complete 
high school.
    The statistics you have given us, I believe those are on an 
annual basis, is that correct, Dr. Meurer? You said 5.3 
percent. Maybe you can clarify that. Could you hand that 
microphone over to her so she could be heard by everyone in the 
back of the room, too?
    Ms. Meurer. Senator Bingaman, the way that New Mexico now 
looks at dropout is to follow the National Center for 
Educational Statistics. And now there are 37 States that are 
looking at it that way. There has been a lot of confusion, as 
you said, in the past, about how dropout statistics are 
calculated. And the definition and methodology that NCES uses 
has to do with looking at students that not only have dropped 
out during that year, but it is waiting till the next year and 
have not re-enrolled. And that is where the dropout comes in. 
So we are waiting until October before we actually collect the 
data from the year before to see who has not re-enrolled.
    There is also another kind of catch that is done, and there 
are two data systems that are used in New Mexico. One is our Ag 
system, and to look at whether or not, because sometimes 
schools don't know, that student actually moved to another 
district and re-enrolled. And if they did, then they would not 
be considered a dropout statistic. Sometimes school districts 
are not aware that students have moved and re-enrolled in 
another school district, so we do a catch.
    The other thing NCES does is look at the U.S. census data, 
which is another form of looking at dropout prevention. And 
that is actually done on a two-year basis. And they look at 
census data and they ask, basically, of adults 18 to 24 who are 
not currently enrolled in school, have they received either 
high school diploma or a GED. And if they say no to those, then 
they are considered part of that national dropout statistic of 
looking at it that way. And when you look at those statistics, 
they are really looking for retention, and the statistics are 
improving in New Mexico for that, too.
    They look at a two-year timeframe. In 1994 through 1996 we 
had 78.8 percent of those individuals saying they had completed 
school or received a GED. In 1998-2000 it went up to 83 
percent. So our numbers are improving, regardless of how you 
define those. But that is a confusion. They are defined 
differently. Right now only 37 States are using the NCES 
definition, so it does make comparisons, nationally, a bit 
confusing. Because if they use a different methodology or 
definition, then they are not necessarily comparable data. But 
we have adopted that. In 1992, New Mexico went to that. So from 
1992 to present, we have very consistent data with a very 
consistent methodology at how we look at dropouts in New 
Mexico.
    Senator Bingaman. Let me just try to be sure I understand 
what is meant when we say our dropout rate in the years 2000 
and 2001 was 5.3 percent. What we are saying is that, that at 
that rate, if we are able to keep it at that rate, then over a 
four-year high school, we would have over 21 percent of the 
students leave that high school? So you would multiply that by 
four? Is that right or----
    Ms. Meurer. No. That is looking at the graphs that I gave 
you, the charts actually do break it down between 9th and 12th 
grade, and then the dropout rates for 7th and 8th grade. So 
they are looked at two different ways. When you look at that, 
you are talking about the school year. When it says 2000-2001, 
it is the school year of 2000-2001.
    Senator Bingaman. So we lost over 5 percent of the students 
in that school year?
    Ms. Meurer. That is correct.
    Senator Bingaman. So in trying to figure out how many 
students to get--trying to get back to what McClellan was 
referring to, we don't have a good way of determining how many 
students had dropped out the previous year and stayed out, so 
we are not able to sort of look and say how many students 
overall that are supposed to be moving through the school 
system and toward a graduation date, are not doing so?
    Ms. Meurer. Well, we can begin to look at reenrollment data 
for that, to see if they come back into the system. But that is 
what we are looking at from the previous school year. But we 
can look at reenrollment data. And I can give you an example of 
what those percentages represent. In 1994-1995, we are at the 
rate of 8.7 percent. That represents 7,792 students in New 
Mexico. In the 2000-2001 school year, it represents 5,095 
students. So we basically kept 2,697 students in school, that 
would have dropped out 7 years ago. So those are real numbers 
of kids. Percentages are kind of confusing because it is not 
real numbers. That is what we are looking at. 2,697 is not 
okay, but it is better than it was 7 years ago. We can begin to 
look at re-enrollment data, and that is taken into 
consideration. But what you're looking at, in terms of the data 
that we give, is really reflective of that prior school year.
    Senator Bingaman. OK. It is my understanding there are 
several school districts that have been denied eligibility for 
Federal funding because they did not have recent dropout data. 
Am I right about that? Is there anything that can be done at 
the State level to ensure that the districts and the public 
have this dropout data on a more timely basis?
    Ms. Meurer. The Department of Education is working on a new 
system to try to get the reports out in a more timely manner. 
Also, individual school districts do have the capability of 
determining their own individual dropout rate before the 
Department publishes the State rates. They have the same 
methodology and can use that data to determine their own 
districts. What they would not be able to do is do a comparison 
of other districts until the State report is ready.
    We are working very diligently right now to increase that. 
One of the problems is that we don't collect the data until 
October of the next school year because of the definition of 
the NCES, and that, basically, is students that have not re-
enrolled at that time, so it gives, actually, a more lenient 
definition of dropout. But we are going to be moving quicker to 
get those reports out. We are hoping--at this point, I said we 
would have the previous year's dropout rate. By December, the 
report will be out, and then we are hoping this spring we will 
have the report from last school year, instead of waiting till 
the fall of the next year. So we are hoping to move that up.
    Senator Bingaman. Is this information that I have got here 
right, though, that some school districts in our State have 
been denied eligibility for Federal funds because they didn't 
have recent dropout data?
    Ms. Meurer. I am not sure that is true or not.
    Senator Bingaman. You do not know?
    Ms. Meurer. I do not have information on that.
    Senator Bingaman. OK. Do we have anything at the State 
level that has been adopted not just as an initiative to try to 
get better data, but actually an initiative to reduce the 
dropout rate, where certain policies have been implemented or 
urged or adopted, that would apply to groups of school 
districts or schools?
    Ms. Meurer. As I mentioned in my testimony, the State Board 
of Education is looking at more flexibility for schools so they 
can address this. The at-risk factor was one avenue the State 
Board went to try to provide more resources for schools. And 
they are also looking at several programs--there is a program 
where students can take courses, at high school, in the 
universities, and actually work toward their associate degree 
before they even graduate from high school. And the virtual 
schooling project is another project that is looking at that.
    In addition, we have the pilot project that we are working 
on. The State Board of Education is constantly looking for ways 
to provide more flexibility to schools, to allow for more 
resources, if they can. And they are looking at regulations 
that they need to be readjusted or changed, or new regulations 
in place, in order to allow schools more flexibility. That is 
on the radar right now, and they are talking about it even 
during this session that they are doing right now.
    Senator Bingaman. But the main focus at the State Board 
level is trying to be sure that local districts have the 
flexibility to deal with the problem?
    Ms. Meurer. That is correct.
    Senator Bingaman. It is not mandating a certain set of 
actions by the local districts?
    Ms. Meurer. No. The State Board truly believes in local 
autonomy, and feels that each individual school district and 
their community can determine the best programs to attack the 
issues within their communities. So they are looking to allow 
for flexibility for that to happen in the local communities and 
schools.
    Senator Bingaman. Karen, let me ask you, you have been 
doing this, now, for a year, as I understand; is that right?
    Ms. Sanchez-Griego. That is correct. Just for me, 1 year.
    Senator Bingaman. Yeah. And it may be too early to be 
expecting this, but you mentioned there are several strategies 
that you are working on to implement in the various schools 
that you are wanting to mention. One is the mentoring at the 
middle school level?
    Ms. Sanchez-Griego. That is correct.
    Senator Bingaman. Could you describe a little more what 
that involves and how many students and how you accomplish it 
and who does it?
    Ms. Sanchez-Griego. Well, currently, because there is a 
strong research component that follows, we have got mentoring 
going on in the southern part of the State and the northern 
part of the State and central, which is Albuquerque, and we are 
targeting just three middle schools and three local high 
schools in kind of like the feeder cluster area. And at those 
schools, just in particular in Albuquerque, they saw 60 
students last year. And they probably added at least 30 more 
this year. And what they are doing is, they meet with the 
students one-on-one----
    Senator Bingaman. Who's ``they''?
    Ms. Sanchez-Griego. Students from the University of New 
Mexico, students at New Mexico State University, High Glen and 
Santa Fe Community College.
    Senator Bingaman. So they are paid?
    Ms. Sanchez-Griego. They are paid.
    Senator Bingaman. These are college students who are paid 
to meet with kids at what grade levels?
    Ms. Sanchez-Griego. They started with 6th grade, last year. 
They are staying with the 6th graders and following them all 
the way up the pipeline. We are trying to keep the kids--once 
we get them in our pipeline in ENLACE, regardless of whether 
they are in the Family Center, the mentoring, Chicano Studies, 
wherever, but in the mentoring component, per se, they picked 
them up in the 6th grade last year. They are continuing on with 
them as 7th graders. This year they picked up some additional 
6th graders from this year and they are just beginning to come 
into the pipeline.
    Senator Bingaman. How often would a college student meet 
with this 6th or 7th grader?
    Ms. Sanchez-Griego. They meet with them twice a week, and 
then they do like an all-out program. They work with the school 
system to make sure that they are not getting out of academic-
type programs. They are working with them. And in the 
afternoons they run a program called ``Compas,'' where they do 
tutoring. And they are there after school, available----
    Senator Bingaman. What is the program called?
    Ms. Sanchez-Griego. The whole program is Los Companeros. 
And then Compas is--probably was prior to that. It would be a 
full amount that you cut and increase one-on-one to try to get 
to know the kids, talk to them about staying in school. A lot 
of them are having family problems, so they refer back to the 
family. It is just a whole link of programs that the kids get 
service from. And then, afterwards, in the afternoons, they 
encourage the kids to come to this tutoring program where they 
bring their homework, and they actually meet with the teachers 
and things, and what are the things you need for us to work 
with this student on academically.
    Senator Bingaman. So how long have you been doing this 
mentoring activity?
    Ms. Sanchez-Griego. We started probably in October of last 
year, so it is relatively been a year. The Institute for Social 
Research at the University of New Mexico and we have researched 
components at all levels. In fact, one of our researchers, 
Victoria, is here today. And they are studying the effects of 
this. They go out and they observe, they check their test 
scores in the Terra Nova, and whether they have increased or 
not increased, they check their attendance to see if their 
attendance has increased since they have been provided a 
mentor, they check discipline referrals to see if the referrals 
are less.
    So we are following a whole number of things. We want to 
make sure the money that was given by Kellogg, and things, and 
the same thing that I do at Cibola. We are trying to follow the 
effects of what we are doing to be able to go to the State 
Department and say, These are the effects of what we have seen 
in a year in the State of New Mexico for Latinos. And it can be 
used really, relatively, for all students. Because we have such 
a high dropout operate, almost half the students in our State 
are not graduating high school. They are not even going on to 
college. That is our target population. But we are seeing 
various students along our pipeline
    Senator Bingaman. Let me just say I think that your figures 
as to how many kids are dropping out are very different from 
the ones Dr. Meurer has.
    Ms. Sanchez-Griego. Absolutely.
    Senator Bingaman. How do you explain that?
    Ms. Sanchez-Griego. You know what is so funny is the 
University of New Mexico got these figures from the State 
Department of Education when they wrote the grant almost 2 
years ago, so it was interesting to hear that the figures were 
different on our end.
    Senator Bingaman. You need to go back and check and see 
what the real figures are, because clearly there is a 
disagreement.
    Ms. Sanchez-Griego. Absolutely. I work as a teacher and 
principal, and that has always been a discrepancy in how we 
look at these kids. They might--no disrespect to the doctor, 
but part of what we see is kids coming to school, they might 
re-enroll. But what happens is, they might re-enroll and 
continue to re-enroll, but they are not really attending class. 
So sometimes----
    Senator Bingaman. So they re-enroll in October or September 
and dropout again?
    Ms. Sanchez-Griego. Correct. And then they might come back 
and re-enroll again. That is a lot of what we were seeing. I 
know a lot of school districts are trying to keep the kids in 
programmatically with other things that we are doing. They are 
trying to provide programs in reference to that. Again, I am 
not trying to speak against her. I am just saying, those are 
the figures that the State Department gave us when we wrote the 
grant. Actually, that went through the University of New 
Mexico's Foundation and researchers.
    Senator Bingaman. Mr. Hall, let me ask you, you have an 
interesting point in your testimony where you talk about how 
you try not to focus on the problem, but try to focus on the 
positive?
    Mr. Hall. Right.
    Senator Bingaman. Which is a good idea, generally. I have 
read some of these motivation books which say that is the right 
way to approach it. And I remember a conversation I had with 
one of our superintendents here in the State several years ago, 
and I said, What are you doing about the dropout problem? And 
he said, We encourage attendance in our schools. Which I 
thought was a very interesting response. And he said, We just 
encourage the kids to come to school, and we emphasize it from 
the day they begin in kindergarten. And we emphasize it to 
their parents, and we never let up. If they are not in school, 
we will find them and bring them to school.
    I don't know if that is the kind of thing you are talking 
about when you are basically focusing on the positive, but I 
wondered, many times, if we have fallen into a trap by labeling 
this ``dropout problem,'' and concentrating on that instead of 
looking more on the positive side and saying, How do we 
increase attendance in our schools?
    Mr. Hall. I would agree with that. I think our approach of 
focusing on the positive is based on traditional wisdom from a 
lot of elders that I have talked to over the last 30 years. 
Some of them never went to school at all, but that is their 
philosophy. They focus on the positive in every case. In the 
case of the dropout situations, what I tried to focus on were 
things that would encourage kids to continue to come to school. 
And I think that is a powerful approach.
    Senator Bingaman. Let me also just comment, your reference 
to ``connectiveness'' as the key element, I mean, the student 
feeling connected to the school, and the parents of the student 
feeling connected to the school, you know, ``school bonding'' 
is another phrase you use here, seems to me that that is a 
major idea that I think has prompted me and others to support 
this notion of smaller schools.
    Mr. Hall. Yes.
    Senator Bingaman. Because it is a lot easier to be 
connected to a school where you really know the people there, 
and you feel you have some familiarity with the physical 
surrounding, the people there, and you know what to expect when 
you show up in the morning, than it is to show up at a 2500-
person high school and feel like you are going to get mowed 
down if you get out in the hallway during the changing of 
classes or something.
    Mr. Hall. The schools are way too big. My wife works at 
Gallup High School, and my son goes there. And she will never 
see him during the week.
    Senator Bingaman. How big is Gallup High School?
    Mr. Hall. There is close to 2000--16, 17, 1800. I don't 
know. And it only has 10th through 12th grade. It is a big 
school. That is, obviously, one of the big problems.
    Senator Bingaman. Let me ask Dr. Meurer this. Do we have 
any statistics as to where the dropout problem is concentrated? 
My impression has been that it is most severe in our largest 
schools. Is that accurate, or do we know, or is this just a 
guess?
    Ms. Meurer. I would have to look at the dropout study 
report. And I gave you the 1999-2000 one, but it does break it 
down by school district in here. And I think that you are 
accurate. There are some smaller school districts--when we 
identified the pilot that I had mentioned, we looked at dropout 
rate as one of the indicators for determining which schools 
would be chosen. And it is not always the largest school 
districts that have----
    Senator Bingaman. I am not talking about the size of the 
school district. I am talking about the size of the school.
    Ms. Sanchez-Griego. The size of the school does seem to 
have an impact. Smaller schools tend to have more 
connectiveness. I know that is showing in studies. And one-on-
one with the teachers is a lot easier than in the larger 
schools. And kids feel that they belong there. So we do see 
that school size does have some impact on dropout.
    Senator Bingaman. Let me also ask if there is any--Dr. 
Meurer, in your testimony, you refer to the Early Reading 
Program, which I think is also a priority of the State Board. I 
believe I am right about that?
    Ms. Sanchez-Griego. Yeah, reading first.
    Senator Bingaman. I have always assumed, and I guess 
everyone assumes that if a kid learns to read in the first two 
or 3 years of school, that that dramatically reduces the 
likelihood that that student will fail and drop out of school 
later on. Do we really know that? I mean, do we know that the 
problem of kids leaving school is correlated pretty directly to 
kids who haven't mastered basic reading skills, or is that just 
guessing?
    Ms. Sanchez-Griego. There are some studies that do show 
some correlations between reading and dropout, but I would put 
a causal on it. There are many, many reasons why students drop 
out of school. And not feeling that they can keep up is one 
reason, and reading has a strong impact on that. There are 
several reasons why kids drop out of school. Some are social 
reasons. And that is what that one pilot that I talked about is 
really kind of looking at with the case management. It is a 
very expensive model, but it really does take each individual 
student that is at risk of dropping out and figuring out what 
are the risk factors and addressing those specifically. It may 
be reading, it may be that they have to be the breadwinner for 
the family. It may be poverty. It could be a number of things 
and combinations of those. I don't think we can say there is 
one reason why students drop out of school. And so the Reading 
First is just one initiative to try to address one thing that 
we do know, through research, is connected to dropout.
    Senator Bingaman. I am sure you are right. There are a 
whole range of causes. But I think what is useful, at least it 
seems to me, what is useful to our State, and for us 
nationally, is to identify those kinds of structural changes 
that we can make in our school system that will, by and large, 
increase the likelihood that kids will stay in school and 
graduate and do well. And some of those are being sure that 
there is a very strong effort at teaching reading in the early 
grades; trying to ensure that the schools are not too large, 
that there are smaller schools. Those are two fairly obvious 
things that I think would reduce the likelihood of kids leaving 
school. There are probably four or five others, and if you have 
ideas, I would be interested in hearing them.
    Ms. Meurer. Just to throw one out, I think it has to do 
with the size of the school, but it also has to do with the 
size the classroom. The more students a teacher has each 
period, that they are addressing, the less they have one-on-one 
attention with students. And I think my colleague at the end of 
the table could probably concur that connectiveness to school, 
some of the studies show that has to do with a significant 
adult in their life, and that school, the mentoring program, 
the success of the mentoring program in providing those mentors 
for kids. So class sizes and----
    Senator Bingaman. School size and class size both?
    Ms. Meurer. Can help, I think. Connectiveness is a real key 
factor. And things that can be changed within the school and 
community environment to provide that are critical issues.
    Senator Bingaman. Anybody have a third or fourth or fifth?
    Ms. Sanchez-Griego. The Family Centers that are being 
developed by ENLACE, these are centers that are now--in younger 
ages, you have PTA and parents that are active in the schools. 
As students get older, parents become less active. And one of 
the things that Maria Hines, who is in the audience, one of our 
parents who is kind of the founder of these Family Centers in 
New Mexico, they are developing centers at the high schools. 
These centers are run by parents. They are not people that are 
hired by the school district. They are run by parents who 
actually live in the community. They are out there.
    This center is a place where kids can feel connected. They 
can come to these centers which provide just an open 
environment, a one-on-one connection. One is in Albuquerque, 
and they are going to be placed in Las Cruces, shortly. In 
working with the director, Lisa Sanchez, is bringing together 
-- they keep food in their facility, constantly, that ENLACE 
has paid for. Kids can come in and just grab a snack, talk to 
them about what is going on. A lot of times they intervene with 
the teacher. And it is a parent to a parent. They talk with 
other parents.
    And, again, I think the success that we have seen in a 
year's amount of time is--and they have been very instrumental 
to bringing dropout students back, because they actually go out 
into the community and talk to other family members. These were 
very, initially, hard to establish because of the fact that you 
are not the principal, so we have our territory. We were like, 
What do you mean they are not an employee of the district? This 
is their school. They are coming in to help assist you with 
students on your campus that maybe you cannot get to, or your 
counselor cannot get to, or the teacher cannot reach. So there 
is a partnership right now.
    That is some that, in fact, we presented nationwide. We 
presented at a conference in Chicago. Our parents have just 
been selected to present the national PTA in Charlotte, North 
Carolina in reference to Family Centers. So I think that is a--
--
    Senator Bingaman. How many of these Family Centers do we 
have now?
    Ms. Sanchez-Griego. Currently, we have three.
    Senator Bingaman. At which schools?
    Ms. Sanchez-Griego. They are at Albuquerque High, West Mesa 
High School, and Del Norte High School.
    Senator Bingaman. How long have you had them in place?
    Ms. Sanchez-Griego. Same amount of time, about 8 months. We 
are going to be presenting to the Legislative Education 
Committee in reference to this. The director up in the 
southern, who works on policy, is actually working with the ad 
hoc committee to write some legislation----
    Senator Bingaman. Do they provide some specific services in 
addition to giving the kids snacks?
    Ms. Sanchez-Griego. They provide services such as they 
bring in tutors from the university, they bring in mentors. And 
the parent is here. She could probably tell it a little bit 
better than I because she is there day to day.
    They have dealt with students who have had suicide 
situations. What they do, they are working with the school. So 
the student might come in and say, I have got a friend, and she 
is having trouble. And then what happens is, they go to the 
counseling office, say, They have come to us first. We want 
your help, but we are also working with the family.
    They helped a young man who was not going to graduate last 
year. The parents were monolingual Spanish speakers and did not 
feel comfortable going to the school. So they directly went to 
the family center and talked to the parents, initially. They 
have helped runaways. They found out that a student had been a 
runaway, from a friend of the friend. They deal with a 
multitude of problems. And again, I probably am not saying as 
best as my parent, who is in the audience, could do.
    Senator Bingaman. That sounds like a very interesting idea.
    Yes? We have someone from the audience who wants to speak 
up.
    Ms. Patterson. I would just like to say, to add----
    Senator Bingaman. Tell us your name, again, please.
    Ms. Patterson. I am coordinating the PASS project, the 
pilot project. I would just like to add, to the four or five 
services that might directly help students are school-based 
mental health services or school-based health clinics where 
mental health services help students, and perhaps family 
counseling type situations. I think we are seeing more and more 
students who have substance abuse issues at younger ages, or 
serious mental health issues, and school-based services can 
really help them.
    Senator Bingaman. Very good. This has been very useful, and 
we have another excellent panel coming forward with, I am sure, 
some additional great insights. Thank you all very much for 
being here. I appreciate it.
    Why don't we go ahead with the second panel? And let me see 
Stan Rounds, who is the superintendent of Hobbs Public Schools. 
And we have Dr. Haugen, who is the superintendent at Gadsden; 
is that correct?
    Mr. Haugen. Yes.
    Senator Bingaman. And Everette Hill, who is the coordinator 
of the dropout project for YDI, the Youth Development Industry, 
Incorporated. And do we have Beverly Averitt, also? Beverly, 
are you going to be on our panel, or not?
    Ms. Averitt. Am I? Yes.
    Senator Bingaman. We would love to have you up here. Let us 
get another chair. Beverly is a principal at Espanola High 
School. Let me just do a slight introduction of each of these 
individuals. Dr. Rounds, Stan Rounds, the superintendent of 
Hobbs Public Schools, has led the effort there to implement the 
advanced placement and preadvanced placement programs, and a 
variety of other initiatives that have been very successful, 
and has been successful. And I have had the good fortune to 
meet with him and others in that community, and admired their 
success over several years now.
    Ron Haugen is with Gadsden schools. And as I indicated 
earlier, they did receive a dropout intervention grant, which, 
unfortunately, I don't believe the funding was continued the 
following year, so I would be anxious to know what progress you 
were able to make.
    Everette Hill is with YDI, which is well known in our State 
for the good work that they do. And as I mentioned, Beverly 
Averitt, who is the principal at Espanola High School.
    So thank you. Why don't we just start with Stan and go 
right across? And each of, you let me just say that we will 
include your whole statement in the record. If you could just 
summarize, make the main points that you think that I ought to 
be aware of, I would sure appreciate that, and then we will 
have some questions.
    Stan, thank you for coming.

STATEMENT OF STAN ROUNDS, SUPERINTENDENT FOR HOBBS SCHOOLS; RON 
 HAUGEN, SUPERINTENDENT, GADSDEN INDEPENDENT SCHOOLS; EVERETTE 
  HILL, YOUTH DEVELOPMENT INC., ALBUQUERQUE; BEVERLY AVERITT, 
                 ESPANOLA HIGH SCHOOL PRINCIPAL

    Mr. Rounds. Good morning, Senator. I want to express my 
appreciation, first of all, to Senator Bingaman for your 
foresight in bringing this hearing to southern New Mexico. I 
know that is unusual as far as Congressional hearings. We are 
certainly honored to have you here today. I would also like to 
thank you for your leadership in the Advanced Placement 
Program, both at the National and State level. You certainly 
are a friend to education in that respect. And I am delighted, 
today, that we are able to sit here and have an opportunity to 
discuss a very important issue of student dropouts.
    When it comes to dropout statistics odds, the numbers speak 
for themselves. The percentage of kids who drop out of Hobbs 
High School before graduation dipped from 3.4 percent in 1995-
1996 to approximately 1 percent in this last school year of 
2001-2002. As we heard earlier, that compares with a statewide 
average, I believe the number was 5.3 percent. During that same 
timespan, Senator, the percentage of children who entered the 
Hobbs kindergarten class grew, and then graduated 12 years 
later, jumped from 45.3 percent to 87 percent. We are quite 
proud of that move.
    Though putting a face on the numbers might be the easier 
approach for us today. That is why I will start with Jake 
Loflin. Last year at this time, Jake was a Hobbs 9th grader 
headed for trouble, in school and out. He was a drug user who 
had anger issues and was a discipline problem. Jake faced long-
term suspension and was on the brink of leaving school for 
good. However, he also had the option of enrolling in the TARS 
program, a boot-camp style class that is a combination of 
calisthenics, crew cuts and tough love. After spending 16 weeks 
in the program, that requires students to curb their attitude 
and temper, Loflin, with other spit-and-polished classmates in 
uniform, marched in front of the Hobbs School Board last 
Tuesday night and collected his TARS diploma.
    Hobbs Mayor Bobby Wallach showed up too, because he wanted 
to give Jake a heroism award for helping save the lives of an 
El Paso family whose boat flipped over at Brantley Lake this 
summer. His mom said that she didn't think that he would have 
had the forethought to strap on a lifejacket and jump in and 
help those people if it were not for TARS, for the discipline 
he had learned there.
    Instead of being at risk for dropping out of school, I am 
proud to tell you, Senator, that Jake is now making As and Bs 
and has his sights set on college.
    I would also like to talk to you about Natalie Rios. Only 
17, Natalie easily could have become part of the 68 percent of 
teenage mothers nationally who fail to complete high school. 
Instead, she enrolled last year in the newly formed teen 
parenting class in Hobbs High School, and learned how to care 
for her son, who is about 2 years old. The class features a 
teacher who makes home visits, and a curriculum that covers 
everything from the ABCs of giving birth to courtroom tactics 
for securing child support payment.
    Now, we are certainly not thrilled about the rising 
epidemic of teenage pregnancy, we choose not to bury our head 
in the sand about this national epidemic. To be honest, 
however, not everybody is pleased with the innovative programs 
that are offered by the Hobbs schools. If you ask the 39-year-
old mother who, this summer, became the first person found 
guilty of violating the compulsory school attendance law in 
Hobbs, she probably wouldn't be too happy with us. But her four 
children are in school today, thanks largely to an aggressive 
attendance policy that saw Hobbs hire four truancy prevention 
specialists. Charged with going to the homes of students with 
chronic absences, truancy officers, two of them were bilingual, 
provided one-on-one contact to parents, who, oftentimes, are 
too intimidated to visit their children's schools.
    You see, providing a united front helps, so much so that 
the absence rates at all levels has been reduced by almost one-
half in just the first year of the truancy program's existence. 
In the rare cases where parents refused to take the 
responsibility for getting their children to school, the long 
arm of the law is the last resort.
    And the guilty verdict rendered by the judge got the 
woman's attention, as well as other parents in the community, 
whom we have decided to hold responsible for their children's 
behavior.
    Here is another for you. Michael Ware was only 17 when he 
graduated from Hobbs High School 2 years ago, but already had 
42 college credits when he enrolled at Colorado State 
University a couple of months later. Ware took advantage of the 
Advanced Placement Program that other schools districts in the 
State are now emulating. While Michael was clearly never at 
risk for dropping out of school, here is what makes our AP 
program so innovative.
    It targets more than overachievers in its academic net. 
More than 40 percent of the students from Hobbs, largely a 
blue-collar town, that now has a 51 percent majority of 
Hispanic students, of which, Senator, about one-half are ELL, 
or limited English proficient students, take at least one AP or 
pre-AP class last year. Our goal is to exceed 70 percent.
    The AP program attracts an abundance of students to its 
classes because it offers financial reward. Make a 3, 4 or 5 on 
your AP exam, and you earn a paycheck as well as college 
credit. Get high enough scores and you take home a $2,000 
computer.
    With that, an aggressive student mentoring effort is a key 
element, we believe, to the success of that program. You see, 
the AP classes are not limited just to the high school. Pre-
advanced placement curriculum in the junior high, and CORE 
knowledge, which is a cultural literacy curriculum at the 
elementary school, means our students will be even better 
prepared for tough classes when they encounter them.
    Our research also shows that thematic instructions embodied 
by CORE improves the learning and test scores of bilingual 
kids. An important project you might want to look at, Senator, 
is the San Antonio schools in San Antonio, Texas.
    By choosing to set the bar higher, Hobbs has succeeded in 
raising the academic standards for all students, even those who 
don't enroll in AP classes. Of course, not all kids go the AP 
route. Plenty of students are enrolled in vocational programs 
that take advantage of nearby New Mexico Junior College. More 
than a hundred students get on a bus each day at Hobbs High and 
ride to the community college campus, where they are enrolled 
in classes like auto mechanics, cosmetology. Computer-assisted 
drafting or metal working are also examples of the skills they 
can learn with equipment that the Hobbs school system has 
purchased and placed on that campus.
    They can take advantage of a newly outfitted technology 
lab, a $250,000 facility that opened this semester to high 
schools, or a $300,000 lab at the freshman school. It is no 
secret that conducting experiments in a simulated wind tunnel, 
or being the director of your own digital movie appeals to 
students who are not pen-and-pencil types. And it is no secret 
that continually updating technology labs is what it takes to 
make the high school relevant to today's students.
    Hobbs voters recently passed a bond issue which would keep 
our schools current with this century's technology, $22.3 
million. In addition to cutting-edge computers, the Hobbs 
school offers a Career Technology Education Plan, which turns 
out students with skills that allow them to get an entry-level 
job anywhere in the business world, upon graduation. Again, 
Senator, relevancy to the student.
    It is a simple fact of life, however, that some kids do not 
feel comfortable in the standard classroom. Recognizing that 
nontraditional students are those most at risk of dropping out, 
Hobbs schools offers a number of individually tailored 
education plans. They include an alternative school where 
students work at their own pace. See, these are not bad kids. 
They are kids we are losing, kids that have special needs, kids 
that have children of their own or problems at home.
    Enrollment at the alternate school has increased from about 
25 students a decade ago to more than 110 now. Night school has 
also increased its enrollment at roughly the same pace, as has 
summer school.
    The fact that Hobbs High School closed its campus in 1993, 
meaning that hundreds of students were not making the run for 
the Taco Bell border at lunchtime each day also has helped. 
See, kids now stay on campus and problems don't come on to 
campus.
    There is no one reason we can point to that accounts for a 
dropout rate that has been on the decline for 7 years running. 
Instead, we have incorporated a mosaic of programs to make 
school relevant, while raising the bar of education for today's 
learners, learners who include everybody from unwed mothers to 
teens who are capable of saving lives but might need some 
direction. See, each students matters to us. And, Senator, as 
you voted, no child should be left behind.
    [The prepared statement of Mr. Rounds may be found in 
additional material.]
    Senator Bingaman. Thank you very much. That is excellent 
testimony. And again, congratulations on many of the projects 
and programs that you are implementing there. I am very 
impressed with them
    Mr. Haugen, why don't you go right ahead and give us the 
perspective from Gadsden? I know you have a very challenging 
situation there with a very fast-growing school district.
    Mr. Haugen. Thank you, Senator Bingaman. First of all, I 
would like to thank you for the opportunity to provide some 
information to the Senate Health, Education and Pension 
Committee regarding the dropout prevention programs that are 
currently in operation or in need in the Gadsden Independent 
School District. The programs that we have are currently 
focused on the upper elementary, middle school and high school 
students, due to the urgency in improving the academic skill 
level of these students to enhance their future opportunities 
for success.
    The Gadsden Independent School District has implemented the 
following programs: First we have the Desert Pride Academy. 
This is an alternative school that consists of, basically, two 
programs. We have a credit recovery program for students who 
are off grade level----
    Senator Bingaman. Let me just interrupt a second. Do I have 
a copy of this testimony? I just don't see it. OK, thanks. Go 
right ahead. Sorry.
    Mr. Haugen. Like I said, these students have two groups. 
First are those that are off, in terms of their grade level, 
and it is mainly a credit recovery program. The other group of 
students are there for long-term student disciplinary reasons. 
This is primarily students grades 9 through 12, and it is 
supported solely by district operational funds.
    The second program is the Title I reading and math labs. 
These are academic support labs for incoming 9th grade students 
who are basically identified as at risk for dropping out. These 
students, in lieu of being retained in the 8th grade, are 
promoted to the 9th grade and placed in these special classes 
for reading and mathematic assistance to support their 
additional language arts and reading classes, math classes that 
they would have in high school.
    These students are basically identified as being in the 
bottom quartile, over time, in the States norm-referenced 
testing system. And these laboratory courses are solely 
supported by Title I funds.
    Our most recent experience in this school district, with 
resources and opportunities for dropout prevention, is a pilot 
partnership with New Mexico State University, and funded by the 
U.S. Department of Education, as you mentioned, entitled the 
Dropout Prevention Demonstration program. This pilot program 
allows us to work with students in grades 6 through 9 that are 
identified as at risk of dropping out. This is basically a 
literacy program for older students to focus on improving 
literacy skills by providing in-school and after-school 
services.
    After 1 year of funding, the U.S. Department of Education 
did not fund this project, even though an application was 
submitted for three additional years. The weaknesses as 
referenced in the application, or by the reviewers of the 
application, indicated that the program focused on literacy 
skills and not dropout prevention. We strongly disagree with 
these assumptions that literacy is not the underlying factor 
that leads to students dropping out.
    As a district and as a community of educators, we believe 
this is the primary cause that leads students to the point of 
making the decision to leave school. The dropout situation is 
generally not created by a single incident, but more often by a 
series of incidences, most of which are related to years and 
years of frustration and lack of success on the part of the 
student. The lack of literacy skills to function effectively 
and competitively with their peers is important early in a 
student's education. We believe it could have made a difference 
in the middle years of school had this project been funded in 
the future.
    We believe that the long-term strategy for dropout 
prevention in border communities lies in having the ability to 
work with children prior to their official entry into the 
public school system, such as the Gadsden Independent School 
District, and not in remediating students late in their 
educational career.
    We propose that moneys be focused on early childhood 
literacy programs for 3- and 4-year-olds. This is needed in a 
district such as Gadsden that has a low socioeconomic status. 
Each year we enter about 1,000 students into our kindergarten 
programs. Approximately 850 of those students are monolingual 
Spanish-speaking students.
    The District has found that these students enter 
kindergarten two to 3 years behind their peers. The moneys 
needed for this type of literacy program will provide the 
necessary developmental opportunities that are prevalent in 
communities that have a higher socioeconomic status. Equity of 
opportunity could be achieved by access to this type of a 
structure that would allow the children in the Gadsden district 
to acquire English language skills, leading to earlier 
proficiency.
    To equalize the playing field, we believe it is imperative 
that Districts such as ours be afforded the resources and 
opportunity to provide early literacy programs for 3- and 4-
year-old students.
    We believe that a funding structure is needed to support 
early literacy and struggling reader programs that will address 
No Child Left Behind. Reading is a fundamental right of all 
people in this country.
    Yesterday I read an article out of the National School 
Board Association--their monthly publication, and the article 
was entitled ``Poor Kindergartners Lack Basic Skills.'' And, 
just briefly, it said that children from poor families start 
kindergarten at a tremendous disadvantage. They are way behind 
other children in their cognitive skills, they need to learn 
math, reading and other skills, which is concluded by the 
Economic Policy Institute. This is research that was done by 
people out of the University of Michigan. And the title of the 
research was ``Inequality of the Starting Date.''
    And we believe that is so important in our district. We 
have kids that come in. They are fundamentally behind their 
peers. And with the No Child Left Behind, we have a mandate to 
get them to a certain point by the time they reach the 3rd 
grade. I think we have these children that--a large number of 
children who actually have acquired the language skills to be 
competitive with their peers, this puts them at a disadvantage. 
We believe if we can get these children prior to that point and 
help remediate some of the situations, that maybe the family 
has not been able to afford them, we can probably help the 
dropout cause in the long-run. This is a long-term solution 
rather than the Band-Aids that are normally applied to students 
later on in their careers. Thank you.
    [The prepared statement by Mr. Haugen may be found in 
additional material.]
    Senator Bingaman. All right. Thank you very much for your 
excellent testimony.
    Mr. Hill, you are here to represent the YDI and give us 
some insights as to the work you folks do. And I am glad to 
have you.
    Mr. Hill. Yes, sir. Thank you very much. First, let me say 
thank you for the opportunity to be here. I must send along 
some apologies for Chris Baca, our President and CEO, who is 
out of town on some other previous commitments.
    My name is Everette Hill. I am the vice president of the 
Education Employment Training Division for Youth Development 
Incorporated. We have heard, this morning, some wonderful 
testimony about not only successful programs, but also 
strategies that work in dealing with youth at risk of dropping 
out. Two of the projects that we operate, the Project Succeed 
Program, and the Project Achieve Program--Project Succeed is a 
program that runs out of the high schools, and Achieve is a 
program that works in the middle schools. And those programs 
work competitively to provide services for youth throughout 
that spectrum. You actually highlight this in the ``New Mexico 
Dropout Prevention Handbook.''
    Those programs have received numerous awards for their 
effectiveness, the ability to retain students. In fact, Project 
Succeed, over the course of its life since 1986, has retained 
about 88 percent of the students its worked with, and I think 
we are somewhere in the neighborhood of 15,000 to 18,000 
students over that time period. There are some things that we 
know about dropout prevention. Many of the panelists earlier 
spoke to some of those things.
    We found, in operating these programs since their 
inception, that smaller class sizes makes a difference. Not 
only smaller class sizes, but individualized instruction, 
modalities in terms of how instruction is delivered, case 
management outside the classroom, job development for not only 
students, but sometimes their parents, being able to affect the 
system from which a student at risk might come from, because 
they, inevitably, have to return to that system, and what 
skills they return with.
    So we have known that there are some things that really 
work, and many of these programs incorporate those things that 
work. In my written testimony I tried to speak to what I 
believe is the challenge that lies before us.
    The question for me really is, how do we sustain the 
progress that we have made? We heard testimony earlier that the 
dropout rate has been on the decline for the last seven to 10 
years. Although some of the numbers--there may be discrepancy 
in the actual numbers, I think that is a truism, that these 
programs that are working with young people, are working. They 
are making an impact. Also, we have heard that--I believe to be 
true is that, there is no one reason why youth drop out of 
school. Along with that, there is no one methodology for a 
program that will retain the student in school. But many of the 
strategies that are used, including things like assessment, 
follow-up, individual service planning, individual education 
plans, individual service strategies, those are things that we 
know work.
    I think that where we are trying to move to, and something 
that the Project Succeed Program has used since its inception, 
is utilizing a system of integrated service delivery. Utilizing 
a system of service delivery really speaks to the hallmarks of 
that kind of methodology, that you recognize that education 
does not happen in a vacuum. Learning does not only take place 
in the classroom. Systems affect how people learn and what they 
learn and what they retain and how they will be able to use 
those things in their lives. So we have looked at not only what 
strategies work, but looking at the system and how they are 
delivered.
    One of the other hallmarks, and I outline in my written 
testimony, actually, three hallmarks that the system of 
integrated services deliver. Right now, many programs utilize 
assessment. We have started to look at assessment, not only as 
a myopic or linear activity, but something that has to be done 
cyclically. Youth at risk need to work with staff persons or 
educators, on a continual basis, to assess for their 
achievements, to assess for their continued needs, to assess 
for what opportunities and options are out there to meet their 
needs. Of course, their needs change as they meet plateaus of 
achievement and they reach different grade levels and age-
appropriate or age-ability standards.
    Along with assessment, that could be done in a cyclical 
way, we also look at follow-up or after-care. So many times our 
programs, even though they are effective, will have a very 
limited amount of time that follow-up is done with our youth at 
risk. Follow-up or after-care could be something that was done 
throughout a student's career. We have seen that 9th grade is 
really one of the periods of a student's educational life that 
they are mostly at risk for dropping out, which is why the 
Project Succeed program really focuses on 9th grade, and the 
Achieve program focuses on 6th through 8th, trying to instill 
some of those opportunities that students will have in terms of 
a support structure.
    So follow-up is something that we look at, that is going to 
be monumental, in terms of continuing to give youth at risk an 
ability to return to an area that they may be comfortable with, 
folks that they have gained a rapport with that can possibly 
help them out of future situations that might lead to them 
dropping out.
    The last thing I would like to speak on, in terms of 
utilizing a system of integrated service delivery, are the 
partnerships that are involved to do such a thing. Utilizing a 
system such as an integrated service delivery system, every 
entity in the community that is involved in working with a 
young person, this would involve our postsecondary 
institutions, our secondary institutions, community-based 
organizations, Health and Human Services organizations, working 
in partnership. And in terms of partnership, there are lots of 
collaborations that people have. We certainly have many of 
them. But in terms of partnership, we are talking more about 
ownership, each entity having ownership for the success of the 
individual, which could also mean the sharing of resources, the 
sharing of creating treatment plans so on and so forth.
    If we are going to be successful in continuing to see a 
decline in the dropout rate, I think we have all experienced, 
and my colleague to my left just talked about a program that 
was very successful but did not receive further funding, we are 
going to have to look at the susceptibility of projects that 
work. We know so many things work, but we are going to have to 
look at the susceptibility of programs that do work. And I 
think by creating partnerships and utilizing a true system of 
service delivery, that is one method that we could use to keep 
those effective programs in operation for our youth at risk.
    [The prepared statement of Mr. Hill may be found in 
additional material.]
    Senator Bingaman. OK. Thank you very much. I appreciate you 
being here to testify.
    Our final witness is Beverly Averitt, who is the principal 
at Espanola High School. We are very pleased to have you here. 
Thank you for coming.
    Ms. Averitt. Thank you for inviting me, Senator. Espanola 
High School has had a high dropout rate for a number years, 
ranging from 10 percent to 18 percent in the last six to 8 
years. I wish I had Mr. Rounds' problem of one percent. In 
fact, to make it even sound worse than that, we usually have 
over 300 freshman entering, and a little over 150 seniors 
graduate. Due to this consistently high dropout rate among our 
students, the Espanola Board of Education formed a Stay In 
School Blue Ribbon Task Force during the 2001-2002 school year. 
The task force was assigned a task of gathering data and 
conducting necessary research in an attempt to identify the 
underlying issues related to our high dropout rate.
    The task force was to then use this data to make 
recommendations, based on their findings, that might help 
reduce the dropout rate. The task force consisted of teachers, 
administrators, parents, students and community members, which 
included local and State police, Los Alamos National Laboratory 
employees, Northern New Mexico Community College employees, 
business owners, and representatives from Senator Bingaman's 
office.
    One of the activities of the task force was to interview 
both midschool and high school students, as well as students 
who had dropped out. The task force found that there were 
almost as many reasons given by students for dropping out as 
there were dropouts. Some of those reasons were: Classes were 
too hard, classes were too easy and students became bored, 
pregnancy, students' need and/or desire to work, students 
missed too much school for various reasons, students failed 
courses and did not make them up in summer school and got too 
far behind in credits to graduate with their class, not enough 
parental support, and students felt that no one really cared 
whether they succeeded or dropped out. The one reason that kept 
coming up with nearly all students interviewed was that these 
students did not feel there were enough adults at the high 
school who knew them or cared about them.
    Several members of the task force had heard of a program 
being run at Rio Rancho High School. Members visited Rio Rancho 
for a day, learned all they could about the program, and 
brought back as much information as possible. In using this 
program as a foundation or a basis, the following 
recommendation was made to the Board, and this was the number 
one recommendation: Create a student support program in which 
teachers, administrators and counselors are assigned up to 18 
students to mentor, advise and support.
    A committee of high school teachers and parents with 
student input and support, along with personnel support and 
grants from the LANL Foundation has been working on the design 
of a somewhat similar program for EVHS. The program has been 
named Team Up EVHS and was put into effect this past Monday. 
The main goals of the program are to improve communication with 
parents through scheduled one half-hour individual appointments 
to be conducted twice yearly, build teams and team spirit in 
order to raise the graduation rate by having monthly team 
meetings, and inform parents and encourage students.
    Through this program, we hope to make parents feel more 
welcome at the school, help them become more involved in their 
child's education, keep them more informed on school 
activities, impress upon them the importance of student 
attendance, give them testing information and results, review 
graduation requirements, help them select methods to help their 
students catch up on credits, etc. We also envision that 
students now have an adult at the school who is their mentor, 
as well as a team of students who can help them succeed.
    The Team Up program targets all students in all grade 
levels. We have also started two other programs that target 
only 9th grade students, this grade level being where the 
largest percentage of dropouts occur. The first of these two 
programs began with applying for and receiving a two-year 
grant. The New Mexico Department of Health, in conjunction with 
the State Department of Education, received Federal funds to 
assist selected New Mexico schools in developing a dropout 
prevention program, and EVHS was one of three schools selected.
    This program utilizes a case manager to address the needs 
of each at-risk student that is identified for the project. 30 
to 50 at-risk students in the 9th grade will be targeted. By 
the end of the first year, only those 9th graders who the case 
manager and counselor feel need to continue in the program will 
remain as 10th graders, and new incoming 9th graders will be 
added. The case manager will schedule appointments with the 
students and parents, make home visits when necessary, bring in 
outside agencies to work with the families, and do everything 
in their power to help make these students successful.
    This program will go hand-in-hand with the Team Up program, 
giving additional support to these high-risk freshman. The case 
manager has been hired and began work this past Monday. And you 
have heard this already today, but the Department of Health has 
also changed the name of the project from the Dropout 
Prevention program to Positive Assistance for Students Success 
or PASS.
    The second of the two programs targeting freshman is the 
AVID program. AVID is an acronym for Advancement Via Individual 
Determination. A team made up of seven faculty members, 
counselors and administrators attended a week-long AVID 
training in San Diego this past summer. Incoming freshman 
students, along with their parents, were then contacted, the 
program was explained and the students were interviewed.
    A total of 23 freshman students were selected to 
participate in the program. Targeted students were those whose 
parents had not attended college, but were students the 
interview committee felt had the potential to succeed if given 
the necessary guidance and a little extra push. They had GPAs 
ranging from a 2.0 to 3.5. They are considered high-risk 
students, but are students willing to try something new to 
prepare them for college.
    During class time, students are taught a variety of 
techniques, in order to make them more successful students. 
These techniques include notetaking, asking questions, simple 
things such as sitting up straight in class and sitting in the 
front of the classroom. The students also work with tutors who 
are taught to ask questions of the students, not just give them 
answers. In addition, there are guest speakers and presenters 
who work with the class to provide them with valuable 
information that can be used in our classes now, or give 
students thoughts for the future.
    Parents are expected to be involved with the students in 
many ways, such as asking questions of their students at home, 
meeting with the students' teachers on a regular basis, helping 
in the classroom or even doing public relations to help the 
program grow for the future.
    AVID was selected as a program for the school on the basis 
of its success, starting in California and spreading to 23 
other States and 15 foreign countries. The success rates for 
AVID students who finish college is 93 percent. I would like to 
say we are getting a lot of help from Northern New Mexico 
Community College and from ENLACE in the AVID program.
    A fourth initiative that has just begun, but which will 
continue in school during the next several years, is the New 
Mexico Initiative on Schoolwide Positive Behavior Support. We 
were one of 23 schools Statewide to be selected to participate 
in training to change the way schools look at behavior. The 
idea is to notice and reward positive behavior rather than 
focusing on the negative. The research behind this shows that 
suspending and punishing students does not work and change 
needs to happen.
    A team of students from the school, including one 
grandparent guardian, participated in the first of several 
trainings. The team has a coach working with it, and the coach 
will participate in additional trainings. Through the 
trainings, the team will learn positive alternatives and 
interventions versus the traditional exclusionary and punishing 
solutions. The team will be presenting information they 
received at their first training to the Espanola High School 
faculty at an in-service this afternoon.
    In addition to the four programs mentioned, we are also 
still reviewing the structure within the school to implement 
interventions by the counseling staff, drug prevention 
specialists, social workers and the PASS case manager, both 
before students are suspended for inappropriate behavior and 
after their return from suspension. We have also established a 
threat assessment team made up of a school administrator, 
associate superintendent, district safety officer, local police 
and juvenile probation officers to help with the intervention 
process.
    We are putting much time, effort, money and faith into 
these programs with the hope that we will be able to decrease 
the dropout rate and increase the graduation rate. At this 
time, only time will tell. And if anyone is interested in 
information on any of these, I did put handouts at the back of 
the room. Thank you.
    [The prepared statement of Ms. Averitt may be found in 
additional material.]
    Senator Bingaman. Thank you very much. I thank you all for 
excellent testimony. Let me just ask a few questions that 
occurred to me. Stan, in your testimony I was struck by the 
indication that you went to a new policy, I believe this fall, 
to close your high school campus?
    Mr. Rounds. Senator, that was actually done 9 years ago.
    Senator Bingaman. It was?
    Mr. Rounds. Yes, sir.
    Senator Bingaman. OK. Tell me your thinking on that and how 
important you think that has been in trying to both improve 
student performance and keep kids in school.
    Mr. Rounds. Senator, we believe that for high school 
students in particular, as well as junior high, that the 
inability to maintain focus on what should be happening on 
campus is directly relevant to whether you have the campus open 
or closed. In the years prior to closing campus, our attendance 
rates at the high school were much worse than the attendance 
rates immediately following that and subsequent to that, and, 
in fact, continue to increase.
    Other things that people don't always think about, when the 
students leave campus and come back on, so often at high school 
levels, the problems come back with them, people that you don't 
want on campus or events that you do not want on campus show 
back up. A lot of times these are violence issues, drugs 
issues, things that should not be happening on campus.
    As we closed the campus, students became or continued to be 
focused on what was happening there and did not have these 
outside issues come into bear. So the safety issue, Senator, is 
an example, fights and weapons, drugs have gone down 
dramatically.
    Senator Bingaman. Now, in practical terms, how do you 
accomplish this closing of the campus? Do you have an 
impenetrable barrier around the school that nobody can 
penetrate? How does that work? [Laughter]
    Mr. Rounds. The howitzer in the corridor.
    Senator Bingaman. Right.
    Mr. Rounds. Senator, we have no fence, in fact, at all 
around our high school. What we simply have done is declared a 
closed campus. You do cord off your areas of vehicular traffic 
and limit the amount of vehicle movement with your staff. You 
supervise your kids, which you do all day anyway. The issue 
really becomes what convenience and opportunities have you 
provided them? In all our campuses, we have brought vendors 
from in town onto the campus. In fact, we are having a bit of a 
go right now with our State and Federal food services people 
about that particular aspect. I will save that for other 
hearings.
    But we felt that was a necessary component so the kids have 
a reason to stay, a reason to congregate around the campus.
    Senator Bingaman. They can either eat the school lunch or 
buy lunch there on campus? Is that the way it works?
    Mr. Rounds. Yes, sir. That is the way it works. 
Interestingly, our type A lunch area, the Federal subsidized 
area, prior to closing the campus, we had an average of 82 
students a day eating there. This is in a high school of 1500. 
Now that we have closed the campus, our average daily lunch 
count is over 650 on that side, as well as, of course, the 
participation of the other vendors. So we believe we have 
increased student nutrition capabilities also.
    Senator Bingaman. Let me just ask, Ms. Averitt, or Mr. 
Haugen, there, if they have had any experience with this same 
issue in your schools?
    Mr. Haugen. As far as closing the schools?
    Senator Bingaman. Yes.
    Mr. Haugen. Our schools have been closed as long as I can 
remember.
    Senator Bingaman. So you do not have the problem of 
students coming and leaving at lunch and coming back with 
problems.
    Mr. Haugen. No. That has not been a problem for our 
particular situation.
    Senator Bingaman. How about you, Ms. Averitt?
    Ms. Averitt. No, We have a closed campus also, and it has 
been there since I have been there, which is 14 years now we 
have had a closed campus. Unlike Hobbs, our campus is 
completely secured by a fence. We have a few entrance-only 
gates. We have not, however, been able to bring in vendors at 
lunch, which is a different problem, because we are on 100 
percent free lunch. So we are not allowed to bring in outside 
vendors.
    Senator Bingaman. OK. Let me ask about another aspect of 
this business of people just not coming to school, kids not 
coming to school. I have had some meetings around the State on 
this for the last several years. My impression is that one of 
the problems that schools have is that they do not have good, 
timely information about who is coming to school and who is 
not, and any real timely mechanism for getting those kids to 
school. I don't know what time school starts in the morning. Is 
it 8 o'clock or 7:30?
    Mr. Haugen. About that.
    Senator Bingaman. If a student isn't there, they do not 
have sort of a ready response. I can remember meeting with the 
school board and school officials in Santa Fe, and they said, 
well, their system was, they took attendance in the morning. 
And then they had a computerized system where they would have 
somebody there in the central office type in, into this calling 
machine, I guess, the names of the students that were not 
there. And then the system was preprogrammed to call the homes 
of all these kids, and that was their response. And then you 
talk to the kids and they say, Yeah, I am home watching TV and 
the phone rings, and some computer program on there talking, 
telling me I am not at school, and I hang up the phone and go 
back to watching TV. How much is that a factor? You talk about 
you have some truancy--I don't know what you called them. You 
called them something besides truancy officers.
    Mr. Rounds. They are truancy specialists.
    Senator Bingaman. Yeah. They are people that go out and 
bring kids to school, or find out why they are not there. Is 
that basically it?
    Mr. Rounds. Senator, yes, it is. And we reached that 
decision because we had been using something called a Family 
Involvement Team for a number of years on the very chronic 
absence issues. We are talking the 20 or more absence kids. 
Because those are usually very deep systemic problems within 
the family. What we realized was that families lost control of 
their children in many cases. And they really appreciate 
reaching out for assistance in helping get the student to 
class. These truancy prevention specialists we have are 
especially trained to not only look for kids, but to identify 
the patterns that are beginning to emerge at three and five 
absences, begin to intervene with the home.
    In Hobbs, as I mentioned in my testimony, a number of our 
parents are monolingual Spanish. Many are coming into a world 
where this is probably not their habit. And they appreciate the 
opportunity to continue to discuss with them the real root of 
the problem and counsel on joint efforts of how we are going to 
intervene with that child. As was said by several people around 
this table today, there are many different reasons why kids 
turn off. But, the important thing that I know is, if you do 
not get them in the door, you cannot teach them. So these 
officers are doing that, and the results are dramatic. And we 
will continue to watch that and perhaps expand if we feel the 
need to.
    Senator Bingaman. Let me ask you, Mr. Haugen, do you have a 
similar capability, or how do you get kids to school if they do 
not show up in the morning?
    Mr. Haugen. Basically, we are very similar to the Hobbs 
School District. We do have some attendance officers, that 
their responsibility is to go out and work with the particular 
schools on contacting the parents. The beginning of the year, 
they are primarily used in tracking down the no-shows, students 
who have not reported back to the school at the start of the 
school year. During the course of the year, then, they work 
with the individual schools on their daily attendance.
    If your question is to how we do it on a daily basis, a lot 
of that varies on the size of the school. Quite honestly, the 
elementary schools, most of our are in the 5- to 700 range, 
where attendance is probably about 97 percent per day. So you 
are only talking, you know, roughly 20 students that may be 
absent on any given day, which is fairly easy to contact the 
parents individually. I have an attendance person who does 
that.
    Gadsden High School, on the other hand, with 2500 students, 
running about 8 percent absenteeism means, daily, that is 
probably 160 or so. There we have been using the Santa Fe 
school system or computerized system to make contact with those 
parents. We do also have other things set up. As far as 
secondary schools, the students lose credit in courses at a 
particular point. Once they have had seven absences in the 
class, then they lose credit. At that point, it is the parents' 
responsibility to come in and meet with the administration and 
clarify the nature of those absences. But then again, it is 
after they have accrued a certain number of absences.
    Senator Bingaman. Yes, Mr. Hill? Go right ahead.
    Mr. Hill. Just to speak to that point, YDI also operates a 
charter school. And from our experience running Project 
Succeed, we knew that a small school was going to be, in our 
experience, beneficial for youth. In terms of folks not coming 
to school, we do much of what they are talking about. Our case 
managers actually try to assess where those ancillary problems 
are that a young person might have before school or after 
school.
    Then, the expectations, in terms of expelling a student is 
that, we do not expel anyone. The idea really is that we have 
made a commitment to understand, to keep our school small. It 
is a mission-driven school, so that everyone involved in the 
school, from the principal to the teachers to the janitors to 
the bus driver, everyone understands the mission. Because 80 
percent of the students at the school have already been 
expelled from other schools. So we know they have a history of 
problems in terms of getting to school.
    So the expectation really is, we are not going to let them 
go. We are going to go to their homes. We are going to call 
you. We are going to find you. Whatever we need to do. We will 
tap into other programs that we have. We have a remediation 
program, literacy projects, whatever it takes to keep that 
young person in school. And sometimes, what we found is that 
sometimes youth who have had trouble with attendance or staying 
engaged in school sometimes need to get out of the classroom 
environment and just kind of work on their own with an 
individualized instructor for a week or two on something that 
may be hard for them. Then they can reintegrate into a small 
class of no more than 15 to 18 people.
    Senator Bingaman. You know, I have been very impressed with 
the programs you folks are engaged in. I think the frustration 
that the schools have, the public schools, is that they do not 
have the resources to give the individualized attention that 
you are able to give in yours. I mean, I can remember meeting 
with Chris Baca and some of the students that were in your 
program at Rio Grande High School, and talking with the 
students. And they would say what they liked about the YDI 
program is all the individualized attention. And I said, Well, 
why cannot you get that in your normal class work here in Rio 
Grande High, and they said, Well, it is not possible. There are 
35 to 40 kids in each class. The teacher is going to see 160, 
180 kids a day, and it is just not realistic to expect the 
teacher to give me the kind of personalized attention that I 
can get here in this small group of 15, or whatever it is in 
the YDI program.
    Mr. Hill. I am glad they told you they like that, because 
most of the time they really hate us for it. We tell them, We 
are not going to let you go.
    Senator Bingaman. Yeah. The interesting thing was they were 
very sympathetic to the teachers in Rio Grande High. And they 
said, you know, these are teachers who would spend the time 
with us if they could.
    Mr. Hill. Right
    Senator Bingaman. But they are so overwhelmed with the 
number of kids that they are trying to provide instruction to, 
they just cannot spend that much time with us.
    Ms. Averitt, let me ask you, how do you deal with the 
problem there at Espanola of actually getting kids to school if 
they do not show up when they are supposed to in the morning?
    Ms. Averitt. Not very well, is the way we have been dealing 
with it. We had, in fact, last year started doing a little 
researching, contacting the schools that had truant officers to 
see if that would be a possibility. Funding wise, we are not 
able to do it. We are still using the automatic dialer that 
calls home to the parents. But to try to give the parents a 
chance to be home and not catch the kids during the day, we do 
not turn the dialer on and start the calls until after 5:00 in 
the evening. And we run it from 5:00 to 9:00. So we try to 
get----
    Senator Bingaman. There is really no effort during the 
day--if the student does not show up in the morning, there is 
no effort during that day to get the student to school?
    Ms. Averitt. Not at all. We are still trying to find a good 
way to do that. We have not come up with one yet.
    Senator Bingaman. Let me ask, on this one other issue that 
has come up here, on the previous panel and again here, about 
the most troublesome year being the 9th grade. I think several 
of you maybe mentioned that. I think, Ms. Averitt, you 
mentioned that and Mr. Hill. I have heard that before. Any of 
you give your ideas on this, but my impression is that that is 
because the 9th grade is the first year that the student is in 
the larger high school, so that the student can be in a middle 
school, which is smaller, and then all of a sudden is being 
dumped into a 2500-person high school, and they show up there 
in the fall and look around and say, This is not for me, or may 
decide, even before they show up, This is not for me, you know, 
Nobody knows me in this place, and I don't know anybody in this 
place.
    Is the problem that we--again maybe this is my obsession 
here, but these very large high schools are structured in such 
a way that the connectiveness, that we were talking about in 
the previous panel, is really not there for a lot of the 
students who are going into the 9th grade. Am I right about 
this problem? Since the microphone is already down here, let me 
start at that end and go all the way down, and we will end up 
with Stan.
    Ms. Averitt. Yes, I think that has a lot to do with it. In 
fact, the transition from the midschool into the 9th has 
probably been even worse for the high school in the last couple 
of years, because the 7th grade is on one campus, the 8th grade 
is on one campus. First of all, the first 6 years they were in 
their small communities. The Espanola schools are made up from 
students from 11 completely different communities. They come 
all together for the first time in 7th grade. They are on one 
campus by themselves, then they go to the 8th grade for the 
second year, and still on one campus. In 9th grade they enter 
high school and come in with everyone else.
    And we have been trying to come up with some transitional-
type programs for the students to help them feel, I guess, not 
even more welcome, but not so lost. And we have played around 
with the--in fact, next year, one of two things will happen. 
Either they will remain at the high school and we will try to 
put them into a Smaller Learning Community, called a Freshman 
Academy, or they may stay at the 8th grade and we may start the 
high school with 10th grade.
    The 8th grade, right now, phase II of the building is 
happening. It is a brand-new building. Last year we started 
with just 8th graders. This next year we are trying to 
determine whether to move the 7th grade up with the 8th or 
leave the 9th grade back with the 8th. That is one thing. I am 
not sure what is going to happen yet.
    Senator Bingaman. I visited Cibola High there in 
Albuquerque that had the 9th Grade Academy. They used the funds 
through this Smaller Learning Communities Grant to set up what 
they called their 9th Grade Academy, and they kept their 9th 
graders in a separate wing. They had lunch together. They 
stayed together as a student body during that extra year. And 
they believed, at least at the time I was there, and this was a 
couple of years ago, they told me they were very optimistic 
this was going to substantially reduce their dropout problem. I 
don't know that that was the result, but that was the way they 
described it.
    Ms. Averitt. We also applied for a Smaller Learning 
Communities Grant, but we did not get the funding. We will have 
to figure out how to do it without the help. It will mean more 
teachers and everything.
    Senator Bingaman. Right. Mr. Hill?
    Mr. Hill. I would say your assessment is pretty dead on. In 
addition to that, I would say that because that is a transitory 
year in their educational careers, not utilizing something like 
a System of Integrated Service Delivery, students who are 
leaving middle school going to high school, not only are in a 
new environment with new people, but what they are actually 
losing is their support system, and they have to create an 
entirely new one.
    We actually created the Project Achieve program because we 
saw that phenomena happening with students coming out of middle 
school into high school. YDI, as a community-based 
organization, has the ability to work with schools. For 
example, Rio Grande kids who are leaving Ernie Pyle to go to 
work with YDI, this creates the continuity for them, transition 
from an environment they know into one they really have no 
support. They can always fall back on the external support that 
YDI provides.
    In case management, mental health and so forth, we have 
been able to act somewhat as an advocate and bridge from middle 
school to high school and create some continuity for young 
students who are leaving and moving into high school.
    Senator Bingaman. Thank you. Yes?
    Mr. Haugen. Senator Bingaman, we totally agree with you as 
far as the smaller schools being more effective. I think a lot 
of times you see, in high schools now, the 9th grade is kind of 
like the freshman year in college, a screening point to 
eliminate people and put them into a certain category. In our 
district we have two high schools. You see a difference between 
the two schools, even though the populations are almost 
identical.
    Gadsden High School has approximately 2500 students, and 
Santa Teresa about 1100 students. You can see the difference in 
terms of their attendance. Gadsden's attendance rate of 90 to 
92 percent, and Santa Teresa, the smaller school, has 95 to 96 
percent. Their dropout rates from last year correlate to that. 
Gadsden ran slightly under 8 percent; Santa Teresa, 5 percent.
    All those factors, I think, contribute to the success of 
the students. And the fact they do not have the contact that 
they need, they do not feel like there is a person, within such 
a large system, is kind of lost, particularly freshman. Santa 
Teresa High School went to a team concept similar to middle 
schools, with pods or teams of teachers that work specifically 
with freshman to make that contact. That has worked very 
successfully there. We are looking to incorporate something 
similar to that at Gadsden High School, with the very large 
freshman class we have there. They are very correlated in terms 
of the size of the school and other factors.
    Senator Bingaman. Thank you very much. Stan, you get the 
last word here.
    Mr. Rounds. Senator, thank you. Let me say to you, we 
studied this issue very carefully in Hobbs. We were losing a 
lot of kids in that freshman school, 600 in size. This year we 
have had a tremendous start. So, certainly, size would be an 
issue, but I believe it may be more than that.
    The school's structure last year, 7, 8 and the junior high, 
three of which we have, also, were approximately 600 in size. 
We were still losing our 9th graders. So the other part of the 
mosaic we are looking at is not just size, perhaps it is also 
the focus of the mission. That is why we felt we needed to have 
a freshman school standing alone. I am happy to report to you 
we handpicked a hundred percent of the staff for that school. 
This year we also added a Dean of Students, and we believe part 
of the answer is to increase our mission of student services. 
Kids at that age need special handling, special care.
    A lot of the points that have been raised around this table 
today, that we are trying to develop without extra help from 
anybody. This is directly an operational process. Certainly you 
are dead-on as far as school size, with one other caveat to 
this.
    The second factor we see is transition from elementary to 
junior high school, and that is our next most important 
mission. The transition of 9th graders out of junior high, we 
believe, need a special focus there. I am happy to report that 
so far this year we are having tremendous results also in that 
respect. So it is a little bit of a convoluted answer. I think 
you are certainly on as far as the need to focus on 9th grade 
and reduce school size.
    Senator Bingaman. I do think these transition points where 
you take a student who has been going to one school and move 
them across town, or blocks away, and tell them to show up 
somewhere else, I think that is where some of the problem of 
kids leaving school and losing interest and feeling 
disconnected, I think that is where it occurs.
    We have got some people in the audience who want to speak 
up. Let me call on them just for short statements, if they 
would, and conclude the hearing. Yes, sir?
    Mr. Liston. My name is Dr. Earl Liston, and I teach at Dona 
Ana Branch Community College. I heard several comments made 
about the teenage pregnancy problem we have in New Mexico. And 
right now I am working quite a bit with a program, this is 
directed at trying to prevent dropouts of pregnant teenagers. 
And right now in New Mexico we have approximately 38 or 41, I 
believe it is, high schools participating in this program, with 
approximately 700 girls. The figure changes every day. But I 
think we are--that it is a successful program.
    It is a controversial program because a lot of people say 
the minute we start providing day care and instructional 
classes for these kids, it encourages more to join the group. 
We are not finding that to be true, at least for the group that 
is headquartered in Socorro. I think we really need to think 
about that. For example, here in Las Cruces we have about 3300 
high school girls, and right now, in these programs for 
parenting, we have about 90 girls. That is about 2 to 3 percent 
of our girls in Las Cruces in the programs. The percentage of 
pregnant girls we have in our high schools is much higher than 
that, because many do not participate in this program.
    I think that is a big group of kids. We are talking nearly 
700 that we can possibly stop from dropping out. In my college 
classes, I have a lot of these girls who did drop out, and they 
are now in their early 1920s, and they are coming back after 
getting their GEDs at community college. And if you come to our 
graduations you will see more kids in gowns graduating from 
GEDs than we do have AAs. So it is an encouraging thing to see 
happening, with them coming back and then they end up taking 
classes.
    I am teaching a nursing division, and many of those now 
want to become nurses, but they are 20-, 21-year-old people who 
have one, two or even sometimes three children in elementary 
school, meaning they had these children at 13, 14 and 15. I was 
talking to some 13-year-old mothers the other day. So we are 
seeing that is a burgeoning problem. There is not a school 
administrator in here who does not know what that is about.
    Senator Bingaman. Thank you very much for your comment. I 
will take one more question and then I would like to conclude 
the hearing because these witnesses need to get back on the 
road to their distant parts of the State.
    Ms. Sanchez. My name is Alicia Sanchez. I am the director 
of the Southern New Mexico Collaborative. The first comment is 
about data. As long as we continue to collect data on an event 
level, we are collecting data only for data sake. That does not 
give us the information that we need to create the appropriate 
programs and be able to give resources where they are needed. I 
would think, at the Congressional level, if we made some 
decisions about longitudinal studies as opposed to event 
studies, then we have data we can use for programs' sake. So I 
think that is really important that we do tell the NCES that we 
need to get away from events and more into longitudinal 
studies.
    The second thing, we have heard a lot this morning about 
interconnectedness, but the interconnectedness has been about 
institutions or maybe even individuals inside. I would like to 
just say there is an interconnectedness that relates to Latino 
kids in terms of their psyche, and when you look at Latino kids 
in schools today they are invisible. We are not in the text 
books. We are not in the magazines. The only thing you see 
about Latinos is we are in prisons, or gangs or whatever the 
case is. We need some help at the Congressional level to change 
the text books and push Hard Cope and Brace and all these other 
groups to begin to be multicultural so we are included in the 
books.
    One of the things our kids say now, because we are 
providing a lot of Latino literature, You mean there are 
Latinos that write books? And they are writing about things as 
simple as Mi Casita, and presenting ideas in another way that, 
Wow, this is exciting. So this is a really big thing, and we 
need to work on that.
    The last thing I want to say is Las Cruces school districts 
have, under the leadership of Mr. Davis and the school board, 
we now are going to have partnership with an action team that, 
together, we are going to begin to look at what are the 
barriers to success for students. We will provide strategic 
goals that the school board then can put into its own strategic 
plan. I think it is going to be exciting. That partnership will 
provide some lessons for other groups.
    Senator Bingaman. Very, very good. One person here who 
wanted to speak. You are going to really be the final word. Go 
ahead.
    Ms. Hines. Maria Hines, and I am also with the ENLACE 
program. And I am one of the parents that are developing Family 
Centers at Albuquerque High. And when you are talking about the 
way the children transfer from 8th grade to 9th grade, where we 
have been real successful is parents from the high school level 
are going down to the middle school and we are meeting with 
those parents. And then when we have met with 20 students, we 
follow 20 students from 8th grade to 9th grade. And it is the 
constant connection that we have with them at the family 
center, not only with the parents there but the parents coming 
into the school.
    The other thing I think you need to know is the family is 
very instrumental in really challenging our kids, also. We just 
had our PSAT tests, and we have a really low turnout of our 
kids taking that test. But through our efforts, through the 
parents getting out there and telling the kids they need to 
take this, it is really important. Their response was, I am not 
smart enough, I don't have the funding, I can't do it. So it is 
that encouragement that is needed. So this year, for the first 
time at Albuquerque High, we had 40 kids. It was the highest 
turnout we had. We are encouraging our kids they can do it.
    Last, but not least, what we are trying to develop is a 
community within the school. Because I think we can develop a 
lot of programs, but until we truly get our parents involved, I 
think we are going to continue to keep seeing the same issues.
    Senator Bingaman. Thank you very much. Thank you for that 
testimony. And let me thank all these witnesses. Again, I think 
all this is very useful to me in trying to understand the 
issues, trying to identify things we can try to do, to be 
supportive, out of Congress. I appreciate it. I think it has 
been a useful hearing, and we will undoubtedly have more of 
these in the future. This problem is not going away. I think it 
is getting somewhat better. I think the focus on this problem 
is very encouraging. I think that that is a major step forward, 
and so I appreciate all the attention to it. And again, I thank 
the witnesses for being here.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement Kristin Meurer

    Good morning, I am Dr. Kristine Meurer, Director of the School 
Health Unit of the State Department of Education. It is a privilege for 
me to be here representing the State Department and State Board of 
Education at the invitation of Senator Jeff Bingaman. We look forward 
to providing testimony on the important topic of dropout prevention to 
the Senate's Health. Education and Pension Committee.
    State Superintendent of Public Instruction Michael Davis sends his 
greeting and an apology for being unable to attend this hearing. The 
State Board of Education is also meeting today in Santa Fe.
    We truly appreciate the work that Senator Bingaman does on behalf 
of New Mexicans. In particular, he has become a champion of many 
programs to improve public education and the educational outcomes of 
our children.
    A specific area of his attention and concern has been students who 
drop out of school before earning a diploma. He has been diligent in 
calling this concern to the attention of educators and the public, and 
has been a leader in seeking and securing resources to address the 
needs of students at risk of dropping out.
    The State Department of Education wishes to go on record in support 
of Senator Bingaman's efforts to continue to fund the federal dropout 
program that he has been so instrumental in establishing. We hope that 
our testimony today will reinforce the fact that the concerted efforts 
of policy makers and educators can have a tremendous positive impact on 
school completion.
    The primary focus of my remarks will be to provide an overview of 
the status of the dropout problem in New Mexico. Those of you who are 
familiar with this topic are aware that there has historically been a 
good deal of confusion and frustration in understanding and 
interpreting dropout statistics due to the wide variety of methods that 
were used to collect, compute and report this data. To remedy this 
problem, the National Center for Education Statistics (NCES) has 
attempted during the past two decades to establish and get all states 
to agree to adopt a standard methodology to report dropout data. New 
Mexico adopted the NCES standards and definitions in 1992-93, and is 
one of 37 states currently using this methodology to report results. 
This standardization ensures the reliability and consistency of New 
Mexico dropout data for the past decade.
    The method used by New Mexico to report statistics is called an 
``event'' rate. This statistic represents the students who drop out of 
school during a specific school year (and don't re-enroll) without 
completing a high school program. This measure provides important 
information on an annual basis of how effective we have been in keeping 
students in school.
    So how has New Mexico fared in this past decade using NCES dropout 
standards? As you can see from our table, our dropout rate in 1992-93 
was 8.0%. Over the next two nears it climbed to 3.7%. Senator Bingaman 
and state policy makers expressed great concern about this increasing 
trend and challenged educators to better address the needs of students 
at risk of leaving school prematurely.
    As a result of this public attention and their own concerns about 
increasing dropout rates, educators began to focus more intently on 
solutions to this problem. Many schools and districts developed and 
implemented strategies to identify and intervene with students at risk 
of dropping out, and to attract dropouts back into their programs. At 
the same time, the Mate Board of Education and the State Legislature 
collaborated on a proposal to add an ``at risk'' factor to the public 
school funding formula to increase district resources to support 
intervention programs.
    State law established the at-risk factor in 1997-98, and schools 
used this resource to expand existing programs and establish new 
programs. The increased attention, focus and resources are working. New 
Mexico's dropout rate has been steadily declining since 1994-95. The 
reductions have been significant, as you can see from this table Today, 
it is my privilege to release for the first time the statewide dropout 
rate for the 2000-2001 school year. The dropout rate is 5.3%. This is 
the lowest dropout rate since New Mexico began reporting dropout rates 
in 1977-1973. The 2000-200 complete dropout report with data on the 
performance of all schools and districts in the state will be released 
in December 2002.
    As significant as the percentage reduction has been since 1994-95, 
the actual numbers have even more impact. The 1994-95 rate of 8.7% 
represents 7,792 students who dropped out that year. The 5.3% rate for 
2000-2001. represents 5,095 students. In other words, New Mexico 
educators have been successful in developing strategies and programs to 
keep 2,697 students in school that would have been dropouts just 7 
years ago!
    The NCES also uses US census data to report ``status'' dropout 
rates which measure young adults ages 18-24 who are not currently 
enrolled in school and who have not received a high school diploma or 
GED. This statistic has also improved significantly in New Mexico since 
1994-96, (78.8%) compared to 83% in 1998-2000. While this is still 
slightly below the national completion rate of 85.7%, New Mexico now 
out performs our neighboring states of Colorado (81.6%), Texas (79.4%) 
and Arizona (73.5%) in high school completion rates.
    Schools have also made considerable progress in reducing the 
dropout rates for ethnic populations with historically high dropout 
rates. The dropout rate for Native Americans in 2000-2001 is 5.9%, a 
reduction from 8.6% in 1994-95. Schools have also had success in 
impacting the area where dropout rates have always been the highest in 
New Mexico, Hispanic students. The rate for these students has fallen 
from 10.9% in 1994-95 to 6.7% in 2000-2001.
    This is extremely good news and cause for congratulations to the 
New Mexico educators who have been instrumental in this turnaround. But 
there is still a great deal of work to be done to ensure that all 
students complete a high school program and have the opportunity to 
pursue a career or further education options of their choice.
    l hope you will have the opportunity today to hear directly from 
some of the practitioners responsible for these positive statistical 
trends. While policy makers and state and district administrators can 
help create the climate for successful dropout prevention programs, it 
is the dedication of those who work in the ``trenches,'' that keep kids 
in school. Credit should also be given to those thousands of ``at-
risk'' students who have overcome challenges and persevered to complete 
their high school education.
    Before concluding my remarks, I would like to spend a few minutes 
reviewing the current priorities of the State Board and State 
Department of Education in addressing the needs of high-risk students.
    The State Board continues to place great emphasis on early literacy 
as a primary strategy in ensuring success in any student's mid school 
and high school rears. The Board is committed to the goal of having all 
students reading at grade level by grade 3.
    Funds made available to the state under the ``Reading First'' 
program of ``No Child Left Behind'' (the federal reauthorization of 
ESEA) will provide our state with over $8 million dollars this year to 
support literacy in grades K-3. We are proud that we are among the 
first 10 states to be approved by the U.S. Department of Education for 
this program due to the quality of our application, and we are 
confident that research-based approaches to literacy will help us reach 
our grade 3 goal.
    The State Board has also placed a priority on student completion by 
including recommendations for high school reform in its 2003 
legislative package. The Board is highly supportive of changes in law, 
regulation and practice that will give greater flexibility, to schools 
in designing programs to meet the diverse needs of their students. This 
will allow schools to better align coursework and graduation 
requirements to post high school pathways selected by students.
    The Board is also proposing programs that will provide more 
stability and consistency when students wish to get concurrent high 
school and college credit by taking a course at a local post secondary 
school. In addition the board is prcposing a ``middle college'' pilot 
that will allow students to work on both a high school diploma and an 
associates (2 year) degree in a compressed period of time.
    The Board is also looking for opportunities for students to earn 
credit through high quality virtual schooling options.
    I would also like to briefly mention a dropout prevention program 
that is currently being piloted through a partnership between the State 
Department of Education and the Department of Health. Senators Bingaman 
and Domenici have been instrumental in providing federal funding for 
this pilot. I have been personally involved in both the development and 
implementation of this program, and am highly optimistic that this will 
prove successful.
    The dropout prevention pilot project's name is PASS- Positive 
Assistance for Student Success. For the next two years three high 
Schools in New Mexico- Cuba, Belen and Espanola Valley High Schools are 
each receiving $183,000 to participate in the pilot project.
    The pilot project is providing direct support to 9th grade students 
who are struggling with grades, attendance or personal issues, which 
make them more likely to drop out of school. The goal of the program is 
to provide support to students and their families early in their high 
school education so that they are less likely to see dropping-out of 
school as their only option. Struggling students are referred to case 
managers who work with the student, their family and the school 
community to identify problems and create positive solutions to help 
the student succeed. The ease managers also help students and families 
find other in-school and community services that will support them. The 
funds are also being used to develop support services in such tutoring, 
mentoring, and mental health counseling for at-risk students.
    The coordinator of the PASS program, Nissa Patterson, is here 
today. She provides on-going technical assistance and training to the 
pilot schools and the case managers.
    In summary, we have accomplished a great deal, but there is still 
much work to be done to ensure that all students complete high school. 
I will be glad to respond to questions or to obtain any additional 
information requested by the committee. Thank you again for the 
opportunity to present this testimony on behalf of the State Board and 
State Department of Education.
              Prepared Statement of Karen Sanchez-Griego,
    ENLACE ``ENgaging LAtino Communities for Education'' is a regional 
and Statewide collaborative for the purpose of leveraging educational 
impacts for success among Hispanic Youth.
    ENLACE in New Mexico is a movement embraced by the community to 
strengthen a collaborative effort to affect our educational pipeline.
    45% of Hispanic students in the state of New Mexico do not graduate 
from High School therefore not affording them the opportunity to obtain 
a higher education.
    50% of Hispanic students on New Mexico Higher Education campuses do 
not receive their degrees.
    1. New Mexico received W.K. Kellogg Foundation Funding in the 
amount of 4.9 Million dollars for 4 years to address Hispanic Higher 
Education.
    2. 125 institutions applied for the initial planning grant, with 30 
of the 125 received planning funds based on this proposal. New Mexico 
was one of the 30 to receive $100,000 for the planning phase.
    4. The planning monies were to be used to determine barriers to 
educational success create and establish well-designed programs that 
would assist Hispanic students in the state of New Mexico to graduate 
from High School and go on to college. All programs address the (K-16) 
pipeline.
    5. Programs were developed with the partners in our Community. 
Parents, families, business, non-profit organizations, community grass-
roots groups, students, professors, teachers, educational institutions, 
administrators, and New Mexico charity groups. (This recognizes that 
education is everyone's business).
    6. Out of the 30 states, which received a planning grant, only 7 
states were given implementation grants. New Mexico was chosen as one 
of the 7 states.
    7. There are 4 grants in New Mexico, one in the Southern part of 
state Las Cruces, Northern part, Santa Fe, Espanola, etc., and Central 
New Mexico, Albuquerque, as well as an overall state grant, which 
encompasses all of New Mexico.
    8. Our goals are to make systemic changes in our educational 
systems that are positive and productive for Hispanic students.
    9. We are also looking at National Policy changes in reference to 
Hispanic students and the future of their education.
    In the creation of this statewide collaborative model our goal was 
to have a strong impact statewide, and this is currently being done. We 
have seen significant potential for the future in terms of making 
history in statewide educational development with others. It took 
several leaders from across our state with higher education leading the 
charge to have a dialogue to work towards programs that are best for 
Hispanics in our state kindergarten through college, and do this with 
limited funding.
    Together we are sharing limited resources, which would maximize our 
efforts to impact our youth. Our collaborative efforts have already 
began the process in creating change not only locally and regionally in 
New Mexico, but at State and National levels as well. We through ENLACE 
are caring for the ``WHOLE CHILD'' in walking the talk of Hispanic 
cultural ways, values and including families as part of the educational 
structure of institutions.
    Our focus and collaboration statewide deals with: 1. K-16 
education, policy analysis revision and reform; 2. Leadership 
development at student, family, community, and institutional levels; 3. 
Enhance statewide effectiveness of communication and dissemination 
throughout the K-16 pipeline focused on sharing and refining ``best 
practices''; and 4. Close coordination of process and outcome 
evaluation on three levels (cluster statewide, local projects) to 
improve educational outcomes for all New Mexico Hispanics.
    New Mexico is the only statewide collaboration nationwide and was 
chosen due to our states vision and thinking outside the box. Many 
Hispanic children and families would not have access to ENLACE, via 
funding without great people in our state who had a vision.
    Statewide all projects have three distinct, yet interlocking 
programs to reach our goals and fall in line with President Bush's 
Executive order 13230, in the development of an advisory Commission on 
Educational Excellence for Hispanic Americans, to address such 
concerns. The development of ENLACE came before the Presidents 
Executive Order.

Programs to reach our Goals and assist in a positive effect on Hispanic 
        dropouts in our state are being accomplished via the following 
        components.

                      FAMILY & COMMUNITY EDUCATION

    Education Access Rooms (EAR's) are being utilized as extensions to 
our local schools in local community centers, where students receive 
much needed credits. Education Access Rooms use distance-learning 
resources, tutors, and parent involvement. We target 9th and 10th grade 
students at risk of dropping out these centers work closely with these 
students' families,

                             FAMILY CENTERS

    Family Centers are currently located at three high schools and we 
are in the process of development of these centers at each high school 
across the state. These centers were the brainchild of Grass-roots 
community activists Maria Hines and Christina Chavez-Apodaca. They 
provide a multitude of services, but mostly they empower families in 
the schools surrounding community to Have a voice in the education of 
their children, at the same time as providing a unique place where 
families can come and share there concerns about our schools, one-on-
one with other parents. The Family Centers also have a strong 
relationship with bringing students who have dropped out back to 
school. Parents receive lists of students who are considered dropouts 
from the principal and/or are not attending classes, these parents then 
go door to door within the community speaking to students and parents 
on these lists asking them why their student are not in school and how 
they can assist in getting the students back to school. Our parents 
call these ``knock and talks.'' A significant number of students who 
have dropped out have returned back to school because of these effort. 
Parent Universities are helping parents become strong advocates and 
coaches for their children.

                               RETENTION

    ENLACE has a variety of retention components within the grant and 
the retention efforts steam from K-16. Our students have mentors at all 
levels, support on campuses through course development such as; Chicano 
Studies classes, outside course work at the neighboring community 
centers, one-on-one support to assist with professors, financial aide, 
and leadership to assist in tackling the bureaucratic systems.
    In order to address the needs of Hispanic students throughout our 
educational pipeline, we have targeted key points of the educational 
systems to intervene and assist students. Beginning in the middle 
schools, mentors are provided for at-risk students. In the high 
schools, Family Centers/Parent Universities will assist the schools and 
families to connect to better serve students. Chicano Studies courses 
and Latino literature at all ENLACE target high schools will provide 
culturally relevant teaching and empower Hispanic students to excel in 
their studies. AVIDS courses have also been added. At out institutions 
of higher education throughout the state Early Warning Intervention 
systems are in place to assist incoming freshman maneuver through the 
educational system and succeed.
    A very unique component in which university students participate in 
mentoring ``at risk'' middle school students provides one-on-one 
relationship building, provides a supportive environment for students 
to obtain academic success, make a unique connection, encourage 
leadership, and provides support for these students to stay in school.
Over 1500 students from across New Mexico have received support from 
        ENLACE.

                        HISPANIC TEACHER PIPLINE

    As we know the success of student retention greatly depends on good 
teaching and teachers. Therefore we have developed the Hispanic Teacher 
Pipeline to increase the Teacher pool in New Mexico and provide 
opportunities within the pipeline for Hispanics young and old to obtain 
a higher decree in the field of teaching.

                          PATHWAYS TO TEACHING

    In an effort to ensure that our teacher population reflects the 
cultural wealth and diversity of New Mexico, Hispanic students will be 
exposed to teaching as a career as early as elementary school and on 
through college. The Pathways to Teaching program will encourage local 
Hispanic students to pursue teaching by providing them with shadowing 
experiences, workshops, and scholarship assistance. Additionally, 
Educational Assistants are encouraged to finish their teaching decrees 
to return to and work in New Mexico.

                               EVALUATION

    As we know in order to make systemic changes for Hispanics in the 
state of New Mexico we need to have data both qualitative and 
quantitative that show how the effects of the ENLACE movement are in 
creating better more productive citizens in the state of New Mexico. 
This is a strong component, and these results will be shared with the 
main stakeholders in New Mexico as we progress to right for legislative 
and national policy issues for Hispanics in our state as well as in the 
nation.
    Given the mission of promoting greater access to higher education, 
retention and graduation from higher educational institutions for 
Latino/Hispanic youth, ENLACE is organized to address policy at the 
institutional, local, state and federal levels. To achieve this, the 
ENLACE initiative identifies the institutional practices of barriers 
that interfere with student recruitment achievement, retention, and 
graduation. In addition, we are addressing local school district 
policies that can facilitate the goals of the ENLACE initiative. We are 
working with local partnerships as catalysts for surfacing and 
informing state policymakers as then grapple with budget and policy 
priorities. We are informing state policymakers at the state level, 
where much of the education policies are generated. The collective 
lessons learned from the 13 ENLACE sites Nationwide will be 
instrumental as the initiate collaborates with other national entities 
to inform both the reauthorization of the Higher Education Act as it 
relates to unique and specific needs of Latino/Hispanic students) and 
the implementation of the Elementary and Secondary Education Act 
(ESEA). We are providing services and support to students within the 
(K-16) educational system. ENLACE is the first initiative with a 
national impact and will have documented results about how to support 
the educational success of Latino/Hispanic students nationwide.
    This nation is in a crisis in reference to Hispanic/Latino 
education, and it has a direct impact on our future economic health. 
Therefore financial and legislative support nationally is greatly 
needed to sustain the efforts ENLACE has made in retaining dropout 
students and moving them on to higher education. We applaud the Kellogg 
Foundation for their initiative to address dropout's retention and 
access to higher education for Latino youth. We look forward to work 
with the Federal Government to increase educational access for Latinos.

                  Prepared Statement of McClellan Hall

    The National Indian Youth Leadership Project is a non-profit, youth 
development organization that has been working with young people for 
nearly 20 years. Our work is based on a coherent set of principles and 
beliefs about how young people can develop their skills and 
competencies to become capable individuals. Although we have been 
funded by various federal and state agencies to do ``prevention'', 
whether it is specifically targeted toward alcohol, tobacco and other 
drugs, dropout or other perceived deficits, our programs all include 
the basic components of outdoor adventure, service and service-
learning, blended with a strong cultural awareness component. Our 
approaches, although they are primarily targeted to Native American 
youth, have been used with mixed populations in various venues and have 
been successful in building resiliency, self-confidence and self-
efficacy.
    In 2002, NIYLP was recognized by the Center for Substance Abuse 
Prevention (Rockville, Md) with the Exemplary Program Award for our 
Project Venture approach. PV is typical of all NIYLP programs in our 
approach to prevention. We never call our programs ``prevention 
programs'' and we don't directly talk about the topic we are working to 
prevent. Project Venture focuses on positive alternative activities, 
which engage young people in meaningful roles in community, encourage 
participants to stretch beyond self-imposed limitations and develop 
skills which will foster resiliency. Our evaluation data places us 
among the top four or five programs in a recent national cross-site 
evaluation study conducted by CSAP. In addition, we were found to be 
the most effective program, of all those serving Native American 
populations. As a result of our national recognition, we now have 
nearly 20 replication sites across the United States. These programs 
are funded by a variety of sources, but are intended to adapt the 
principles of our model in various tribal and mixed populations of 
youth, in Hawaii, Alaska, North Carolina, Montana, Idaho, Arizona and 
New Mexico. As mane as 10 new sites may be starting up in 2003.
    The schools are the most obvious places where we have been able to 
access populations of young people to recruit for our programs. 
Alternative school programs, public, tribal and Bureau of Indian 
Affairs schools, as well as other programs also offer accessibility to 
numbers of young people. However, we recognize that large numbers of 
disaffected young people leave school before graduation, for many of 
the same reasons that are cited for involvement in Alcohol, tobacco and 
other drug abuse. In our experience, going back nearly 20 years, a 
number of factors influence the relationships that young people, 
particularly those from so-called minority groups, have with the 
schools. The following questions are relevant: Are the school 
administrators friendly towards the particular cultural group? Is the 
school system parent-friendly? Are there subtle messages that 
discourage or exclude certain groups? Does the school system embrace 
the culture of the community? Are there members of the cultural group 
represented in the school staff makeup? Are there opportunities for 
experiential learning? Does the school have any accommodations to 
different learning styles? What are the attitudes of the administration 
toward youth culture, in general? These are just a few of the factors 
that may impact the dropout rate. In Native American communities, which 
have the highest drop out rates in New Mexico, as yell as nationally. 
We have noticed some trends and can offer some recommendations and 
strategies that will increase the probability that our youth will 
complete high school. Three things schools can do immediately to alter 
the dropout rate:

                            SERVICE-LEARNING

    In our approach to drop out prevention, we encourage schools to be 
more student and community-friendly. Offering alternative approaches, 
such as service-learning is one way to extend the boundaries of the 
classroom to include the community. Partnering with Community-based 
Organizations shows respect and makes a statement about the commitment 
of the school to the community. Student-driven projects, where 
community needs are researched, assessed and projects planned with 
extensive student input are a proven effective way to engage young 
people in issues that are meaningful to them and get them to invest 
themselves in their community. Youth voice should not be seen as 
optional or irrelevant. Quality service-learning opportunities have 
strong connections to the academic curriculum and can support the 
culture of the community. Intergenerational projects, which link youth 
and elders have great potential for authentic learning opportunities, 
as well as building connections to the culture and community. 
Conversely, alienation is seen as a major factor in youth violence, 
vandalism and general apathy in our communities.

                     QUALITY AFTER-SCHOOL PROGRAMS

    One trend that we have observed is that the schools have 
increasingly become more like the prison industry, even adopting some 
of the same vocabulary. Pressures to raise standardized test scores has 
eliminated many of the little things that schools can do to make young 
people more comfortable. Economic realities have eliminated many of the 
courses (arts, music and others) that young people used to enjoy as 
electives. Other extracurricular activities have been limited or 
curtailed due to budget constraints. Budget cuts often limit the 
transportation options, which impact after school possibilities. In 
rural areas, many communities simply can't afford to run extra busses. 
Many teachers are overworked and underappreciated and often can't take 
on one more program. However, the after school programs are often the 
only time teachers and students in need of help can find the time to 
try alternative approaches and have more one-on-one opportunities. The 
daily routine for most teachers does not allow individual attention.
    A quality after school program could make the difference between 
success and failure. In many cases the perception is that students are 
blamed for the failures of the school system and teachers assume a 
punitive attitude towards so-called minority group students. This is 
especially evident where Native youth, who come to school speaking a 
language other than English, are perceived to be holding the school 
back, in terms of test scores, reading levels. etc.

       ADVENTURE PROGRAMMING/RECONNECTING WITH THE NATURAL WORLD

    Among other things, our programs have been very successful, in what 
evaluators call ``school-bonding'', which includes improved attendance, 
reduced disciplinary incidents, improved grades and increased 
involvement in school-related activities. In our experience, young 
people have a different perception of school when they have shared 
experiences with teachers outside the classroom walls. The natural 
world provides a context for activities that challenge young people to 
stretch beyond self imposed limitations. Dialogue with young people, 
where adults help young people draw meaning from experience, enhances 
learning opportunities and helps both teachers and students realize 
that serious learning often takes place outside of school. Respect for 
the environment is difficult to develop indoors. The holistic approach 
reaches young people in ways that are not possible in a classroom.

                CONCEPTUAL FOUNDATIONS OF OUR APPROACHES

    Programs must be holistic, incorporating physical, cognitive, 
psychosocial and spiritual development; Experiential, learning by 
doing; Structured risk and challenge; Connected to the natural world; 
Student/youth centered; Developmentally appropriate scope and sequence 
of activities; Culturally relevant; Focus on building life skills and 
relationships; and High coherence and intensity of interventions.

                           RESEARCH FINDINGS

    Project Venture consistently reduces overall risk levels for 
program youth compared to non-program peers (American Drug and Alcohol 
Survey).
    Program youth demonstrate greater degree of internal locus of 
control and sense of empowerment that comparison group at all ages, at 
twice the rate for high school age group. (Locus of Control Scale for 
Youth).
    High school program youth show significant reduction in past 30 day 
alcohol use, in feelings of depression and in aggressive behavior when 
compared to nonprogram youth. (Strategies for Success survey).
    Middle school program youth score more favorably that comparison 
peers in areas of depression, aggressive behavior and in perception of 
harm caused by alcohol, tobacco and other drugs. (Strategies for 
Success survey).
    Project Venture recognized as one of top four prevention programs 
and top program of all serving Native American youth in national cross-
site evaluation study of over 80 CSAP-funded programs. 2002 US Dept. of 
Health and Human Services.
    The following is a summary of major findings from an extensive 
national cross-site evaluation study conducted by the Center for 
Substance Abuse Prevention, completed in 2002, by Dr. Fred Springer, of 
EMT Associates.
    As youth age, levels of risk and protection shift considerably. The 
findings on risk, protection and substance abuse and the age of youth 
reveals a consistent pattern. As youth move through the adolescent 
years there is a steady movement from the protective to the risk 
conditions in most of the external and internal factors. The movement 
is greater in family bonding, school bonding and peer attitudes-those 
factors that refer to the social environments to which youth are 
building attachments as they mature. In my assessment, this means that 
as young people move through the adolescent years, family and school 
become less influential and the peer group becomes stronger. This 
presents a challenge to schools to be aware that they need to do more 
to attract and bond with young people. However, the trend with schools 
seems to be to toughen policies and become less flexible at this 
critical juncture.
    Gender plays an important role in risk, protection, and substance 
use. The data suggest that conditions in the neighborhood have a 
greater influence on substance use in males than in females, while the 
relationships between all the internal risk and protection factors and 
substance use are substantially stronger for females than for males. 
This finding may help us understand why more males than females seem to 
be dropping out of school. Young men need to be bonding with positive 
influences at this critical age, yet most of the accessible role models 
seem negative (media, music, etc.).
    Connectedness protect against substance use. Positive behavioral 
outcomes among youth reflect a tight interweaving of external and 
internal protective factors. Connectedness to family and school forms 
the core of this protection. Meaningful involvement is key to 
connectedness. When the external environments of family and school 
offer youth involvement that is challenging, provides recognition, and 
is rewarding, these environments serve as powerful protective factors 
against substance use and will increase the likelihood of staying in 
school.
    The peer environment is critically linked to substance use. Youth 
whose peers do not use substances tend not to use substances 
themselves. Youth whose peers disapprove of substance use also report 
less use of substances. Because peer relationships are strongly 
associated with the family, school, and community environments in which 
youth reside, positive changes in those external environments can 
effect the peer environment and impact individual substance use. This 
obviously goes beyond programs such as DARE, that have no evidence of 
meaningful lasting impact. The schools have to welcome young people and 
provide a nurturing environment. In reality, youth perceive schools to 
be increasingly rigid and inflexible. The environment in many schools 
is perceived to be more like prison.
    Broadening the range of protective influences in the external 
environments increases protection against substance use. Efforts to 
strengthen families (by encouraging communication, appropriate 
supervision, and positive norm setting) and to strengthen schools as 
caring communities (to improve school bonding) increase the protection 
of youth against substance use and increase the likelihood of staving 
in school.
    In our conversations with Dr. Springer, the most important factor 
he found in his extensive analysis of prevention programs was the 
concept of ``connectedness''. This seems to be the single factor that 
comes through in reading the study. The efforts that were successful in 
preventing alcohol, substance abuse, dropout, etc. had the concept of 
connectedness in common.
    McClellan Hall is the Founder and Executive Director of the 
National Indian Youth Leadership Project, a Gallup-based national non-
profit established in 1986. Mr. Hall is of Cherokee descent, with roots 
in both North Carolina and Oklahoma. He has devoted nearly 30 years to 
serving Native American and other youth, as a teacher, counselor, 
principal of two tribal schools and a consultant. He is the recipient 
of the Kurt Hahn Award, from the Association for Experiential Education 
(named for the founder of Outward Bound and the United World College 
program), the Spirit of Crazy Horse Award (from the Black Hills 
Institute and Augustana College) and other awards. Mr. Hall is a 
graduate of the University of Washington's Native Teacher Education 
Program and holds a Masters Degree from Arizona State University.

                   Prepared Statement of Stan Rounds

    When it comes to drop out statistics in Hobbs, the numbers speak 
for themselves. The percentage of kids who dropped out of Hobbs High 
School before graduation dipped from 3.4 percent in 1995-96 to 1 
percent in 2001-2002.
    That compares to the statewide average of 6 percent.
    During that same time span, the percentage of children who entered 
a Hobbs kindergarten class and graduated 12 years later jumped to from 
45.3 percent to 87 percent.
    But putting a face on the numbers might be the easier approach.
    So that's why I'll start with Jake Loflin.
    Last year at this time Jake was a Hobbs ninth-grader headed for 
trouble--in school and out. A drug user who had anger issues and was a 
discipline problem, Jake faced long-term suspension and was on the 
brink of leaving school for good. However, he also had the option of 
enrolling in the Hobbs School District's TARS program, a bootcamp style 
class that's a combination of calisthenics, crew cuts and tough love.
    After spending 16 weeks in the program that requires students to 
curb both their attitude and temper, Laughlin--with other spit-and-
polished classmates in uniform--marched to the front of the Hobbs 
School Board room last Tuesday night and collected his TARS diploma.
    His mom and plenty of other proud parents attended a ceremony that 
had more than one person reaching for their Kleenex.
    Hobbs Mayor Bobby Wallach showed up too. To give Jake a heroism 
award for helping save the lives of an El Paso family whose boat 
flipped over at Brantley Lake this summer.
    ``I don't think he would have had the forethought to strap on a 
lifejacket and jump in and help those people if it weren't for TARS--
for the discipline he learned there,'' Jake's mom said.
    Instead of being at risk of dropping out of school, Jake is now 
making A's and B's and has his sights set on college.
    Then there's Natalie Rios.
    Only 17, Natalie easily could have become part of the 68 percent of 
teen-age mothers nationally who fail to complete high school.
    Instead, she enrolled last year in a newly formed Teen Parenting 
class at Hobbs High School and learned how to care for her son, now 2 
years old. The class featured a teacher who made home visits and a 
curriculum that covered everything from the ABCs of giving birth to 
courtroom tactics for securing child support payments.
    Along the way, Natalie and other pregnant students who are 
sometimes shunned by classmates picked up some important lessons about 
self-esteem.
    ``When you have a baby and you're young, people seem to look at you 
like you have less respect for yourself,'' Natalie told the local 
newspaper. ``But I don't feel that way in this class. In here, 
everybody's equal. Everybody's accepted.''
    While we're certainly not thrilled about the rising epidemic of 
teenage pregnancy, we choose not to bury our head in the sand about a 
national epidemic. Recognizing that our students must deal with 
emotional issues while also struggling to do their math homework, 
classes like Teen Parenting help them through a difficult stage in life 
without passing judgment.
    To be honest, however, not everybody is pleased with the innovative 
programs offered by Hobbs Schools.
    If you asked the 39-year-old mother who this summer became the 
first person found guilty of violating the compulsory school attendance 
law, she probably wouldn't be too happy with us.
    But her four children are in school today, thanks largely to an 
aggressive attendance policy that saw Hobbs hire four truancy 
prevention specialists.
    Charged with going to the homes of students with chronic absences, 
truancy officers--two of them bilingual--provided one-on-one contact to 
parents who often times are too intimidated to visit their children's 
schools. Working with a combination of agencies including juvenile 
probation, Children Youth and Family and the judicial system, we 
learned that parents are often as frustrated about how to keep their 
kids in school as we are.
    Providing a united front helps.
    So much so that absence rates at all levels was reduced by almost 
half in the first year of the truancy program's existence.
    In the rare case of parents who refuse to take responsibility for 
getting their children to school, the long-arm of the law is a last 
resort.
    And the guilty verdict rendered by a judge--the 39-year-old mom I 
mentioned earlier avoided jail time but was fined--got the woman's 
attention as well as other parents in the community whom we've decided 
to hold responsible for their children's behavior.
    Here's another face for you.
    Michael Ware was only 17 when he graduated from HHS two years ago 
but already had 42 college credits when he enrolled at Colorado State 
University a couple months later. Ware took advantage of an Advanced 
Placement program that other school districts in the state are now 
emulating.
    While Michael was clearly never at risk of dropping out of school, 
here's what makes our AP program so innovative: It snags more than 
overachievers in its academic net.
    More than 40 percent of students from Hobbs--a largely blue-collar 
town that now has a 51 percent majority of Hispanic students--took at 
least one AP or pre-AP class last year. Our goal is to exceed 70 
percent.
    ``For a public school taking all kids as they come, 40 percent is 
by far the highest of any school in New Mexico and it's comparable to 
the very best AP programs in the country,'' AP New Mexico director Pat 
Cleaveland said recently.
    The AP program attracts an abundance of students to its classes 
because it offers financial reward: Make a 3, 4 or 5 on your AP exam 
and you get earn a paycheck as well as college credits. Get high enough 
scores and you take home a $2,000 computer.
    In addition, teachers whose students do well on AP exams get a 
bonus.
    Suddenly, being smart is fashionable at Hobbs High School and 
teachers who provide tutoring before and after school to motivate 
students have more than a feeling of self-satisfaction to show for 
their efforts.
    But AP classes aren't limited to the high school. Pre-AP curriculum 
in the junior high and Core Knowledge, a ``cultural literacy'' 
curriculum at the elementary school, means our students will be even 
better prepared for the tough classes when they encounter them.
    Our research also shows that thematic instruction embodied by Core 
improves the learning and test scores of bilingual kids.
    By choosing to set the bar higher, Hobbs has succeeded in raising 
the academic standards for all students--even those who don't enroll in 
AP classes when they arrive at the high school. Nonetheless, those 
students have also benefited by having teachers who've undergone the 
specialized AP training or Core Knowledge training all instructors 
receive.
    Of course, not all kids go the AP route.
    Plenty of students are enrolled in vocational programs that take 
advantage of nearby New Mexico Junior College.
    More than 100 students get on a bus each day at Hobbs High School 
and ride to a college campus where they are in enrolled in classes like 
auto mechanics or cosmetology. Computer assisted drafting or metal 
working are also examples of skill they can learn on equipment 
purchased by the Hobbs Schools system.
    Or students can stay put at the high school and grow geraniums in 
the horticulture program. They can go to a barn to groom pigs or learn 
how to judge sheep in a FFA program that consistently has winners in 
national high school competition.
    Or they can take advantage of newly outfitted technology labs--a 
$250,000 facility that opened this semester at the high school or a 
$300,000 lab at the middle school.
    It's no secret that conducting experiments in a simulated wind 
tunnel or being the director of their own, digital movie appeals to 
students who aren't ``pen-and-pencil'' learners. And it's no secret 
that continually updating technology labs is what it takes to make the 
high school relevant to today's students.
    Hobbs voters recently passed a bond issue which will keep our 
schools current with this century's technological revolution--the 
equivalent to the previous century's industrial revolution.
    In addition to cutting edge computers, the high school offers a 
career technological education plan that turns out students with skills 
that allow them to get an entry level job anywhere in the business 
world upon graduation.
    Back in the classroom, curriculum is annually reviewed by a 
committee of students, teachers and parents and updated each year to 
reflect the changing times. Courses like Afro-American Studies and 
Latin American Studies give minorities a chance to learn about their 
own cultures while Anglos have the chance to explore something beyond 
the traditional coursework.
    It's a simple fact of life, however, that some kids don't feel 
comfortable in a standard classroom.
    Recognizing that non-traditional students are those most at risk of 
dropping out, Hobbs schools offers a number of individually-tailored 
education plans.
    They include an alternative school where students work at their own 
pace.
    ``These aren't bad kids,'' former Assistant Superintendent Bruce 
Hardison said. ``They are kids that we were losing--kids that had 
special needs, kids who had children of their own or problems at home. 
Some students just aren't going to fit into a big school setting where 
they are part of a student body with 1,500 or more students.''
    Enrollment at the Alternate School has increased from about 25 
students a decade ago to more than 110 now. In addition, we've 
increased the teaching staff from two to ten and doubled classroom 
space while eliminating the stigma associated with Alternate School.
    Night school has also increased its enrollment at roughly the same 
pace. Offered four nights a week in two, four-hour sessions, the 
classes give students who've fallen behind on credits a chance to catch 
up and graduate on time. Night school complements an aggressive summer 
school program that gives students the same opportunity.
    In addition, a variety of five work-study programs give students a 
chance to earn money--sometimes necessary to support a household--while 
also earning school credit. And the fact that Hobbs High School closed 
it campus in 1993--meaning that hundreds of students weren't making a 
run for the ``Taco Bell border'' at lunchtime each day--also helped. 
Some kids never returned from lunch while others came back charged up 
and distracted from the education process.
    Offering fast-food vendors on campus along with the more 
traditional school lunches gives students a chance to socialize but 
also kept them focused on school--their 8:30--3:30 job.
    There's no one reason that we can point to that accounts for a drop 
out rate that has been on the decline for seven years running now.
    Instead, we've incorporated a mosaic of programs to make school 
relevant while raising the bar of education for today's learners. 
Learners who include everybody from unwed mothers to teens who are 
capable of saving lives but might need some direction. Each student 
matters to us.
    The common factor in all of our programs is a realization that the 
world is changing. And our classes and curriculum must do likewise.

                    Prepared Statement of Ron Haugen

    Thank you for the opportunity to provide information to the Senate 
Health Education and Pension Committee regarding dropout prevention 
programs that are currently in operation or needed in the Gadsden 
Independent School District. The programs that we have are currently 
focused on the upper elementary, middle school and high school students 
due to the urgency in improving the academic skill level of these 
students to enhance their future opportunities for success. The Gadsden 
Independent School District has implemented the following:
    The Desert Pride Academy Alternative School that consists of a 
credit recovery program for off grade level students who are behind and 
long term student disciplinary placement in grades 9-12 both of which 
are currently supported by District operational funds.
    The Title 1 Reading/Math Labs are academic support classes for 
incoming 9th grade students who are at-risk for becoming drop-outs. In 
lieu of retaining students in the 8th grade, the district has placed 
entering students in a 9th grade program focused on reading and 
mathematics instruction. These students have scored in the bottom 
quartile overtime on the state's norm-referenced test. These laboratory 
courses are supported by Title 1 funds.
    I believe that the long term strategy for drop-out prevention in 
border communities lies in having the ability to work with children 
prior to their official entry into a public school system, such as the 
Gadsden Independent School District and not in re-mediating students 
late in their educational career. I propose that monies be focused on 
early childhood literacy programs for three and four year olds. This is 
needed in a district such as Gadsden that has a low socio-economic 
base, and where 85% of the students enter into kindergarten as 
monolingual Spanish speakers. The District has found that these 
students enter Kindergarten two to three years behind their peers. The 
monies needed for this type of literacy program would provide the 
necessary developmental opportunities that are prevalent in communities 
that have a higher socioeconomic status. Equity of opportunity could be 
achieved by access to this type of structure that would allow the 
children in the Gadsden District to acquire English language skills 
leading to earlier proficiency. To equalize the playing field, I 
believe it is imperative that districts such as ours be afforded the 
resources and opportunity to provide early literacy programs for our 
three and four year olds.
    Our most current experience in this school district with resources 
and opportunities for drop-out prevention was a pilot partnership with 
New Mexico State University and funded by the U.S. Department of 
Education entitled The Drop-out Prevention Demonstration Program. This 
pilot allowed us to work with students in grades 6-9 that were at-risk 
of dropping out. This was also a literacy program for older students 
that focused on improving literacy skills by providing in-school and 
after-school services. After one year of funding the U.S. Department of 
Education did not fund this project even though an application was 
submitted for three additional years. The weaknesses in the application 
indicated that the program focused on literacy skills and not drop-out 
prevention. I strongly disagree with their assumptions that literacy is 
not the underlying factor that leads to students dropping out. As a 
District and a community of educators we believe that this is the 
primary cause that leads students to the point of making a decision to 
leave school. A dropout situation is generally not created by a single 
incident but more often by a series of incidences most of which are 
related to years and years of frustration and lack of success on the 
part of the student. The lack of literacy skills to function 
effectively and competitively with their peers is important early in a 
student's education. I believe we could have made a difference in the 
middle years of school had this project been funded.
    I believe that a funding structure is needed to support early 
literacy and struggling reader programs that will address No Child Left 
Behind. Reading is a fundamental right for all people in this country.
    Thank-you for the opportunity to express the needs of the Gadsden 
Independent School District.

                  Prepared Statement of Everette Hill

                                ABSTRACT

    To prevent youth at-risk from dropping out of school, educators and 
service providers must utilize a system of integrated service delivery, 
a network of partnerships involving community, business and parental 
involvement, and systems of assessment that can accurately, and 
continually, evaluate youths' achievement, needs, and support systems. 
These elements will effectively make the educational experience 
relevant to youth, their families, and their future coals and needs. In 
New Mexico, a model program (Project Succeed) has implemented these 
strategies with practical results.
    There is a significant amount of research available that outlines 
the challenges individuals, communities and municipalities face when 
youth discontinue their secondary education prematurely. All told, 
young men and women who drop out of school cost the country substantial 
amounts of money during their lifetimes in lost revenue, unrealized 
taxes, and the increased burden placed on public resources and 
programs. It seems quite obvious that to rectify these issues. We must 
do something about the phenomenon of school dropouts. But what?
    Before we begin a discussion about dropout prevention and the 
efficacy of certain elements, we must first acknowledge that there are 
many strategies, concepts, and programs that, over the years, have been 
very effective. For example, there is a significant amount of research 
indicating that keeping class sizes small, arranging classrooms to 
enhance the environmental learning experience, creating support 
structures outside of the classroom, increased individualized 
attention/instruction, and utilizing experiential learning activities 
are all effective strategies when attempting to engage youth at-risk, 
and compel them to stay in school. Similarly, one can point to many 
programs that have utilized the aforementioned strategies, and added 
some other critical elements, to produce effective dropout prevention 
programming. An example of this is the Project Succeed Program.
    Project Succeed is a school-based dropout prevention and school-to-
work program that incorporates additional elements into the educational 
environment including job placement, work readiness training, 
incentives and rewards, case management and counseling, professional 
development schedules for staff, and community service learning 
projects for students. Conceptually, this approach is used to bridge 
the gap between what educational elements that youth at-risk deem 
relevant in the real world and what needs to be taught to make the 
educational experience more personal and utilitarian. We have seen that 
these types of approaches can be highly successful; Project Succeed has 
been touted as a model program for youth at-risk, and has enjoyed a 
greater than 88% retention rate of its' students since its' inception 
in 1986.
    So, if the aforementioned is true, that we already have concepts, 
strategies, and model programs that have been proven to defeat the 
spectre of school dropouts, then why do we still have to contend with 
the very troubling and socially expensive prospect that nearly one out 
of every 20 high school students will dropout of high school?
    It is my assertion that among the myriad of reasons why youth at-
risk continue to dropout of school is that: 1) the assessment process 
is much too linear and myopic, 2) the aftercare or follow-up regimen, 
when there is one, is restricted in scope and limited in duration, and 
3) systems of integrated service delivery, often utilized by community 
based organizations and health and human service agencies, have not 
always found their way into school systems within the framework of a 
partnership.

                               ASSESSMENT

    As eye continue to strive toward developing programs that are 
effective in reducing the number of dropouts we have annually, we must 
begin to redefine what assessment means to our youth at-risk and our 
programs. Assessment likely exists in many, if not all, of the dropout 
prevention programs in the state of New Mexico. Regardless, it is not 
whether assessment exists but rather how assessment tools, information 
cleaned from the assessment process, and the manner in which assessment 
is performed that determines how effective the process will be.
    Often times, the assessment process can be much too linear and 
myopic to be effective. For example, many professionals contend that 
haying the ``right'' assessment tool that yields the ``correct'' course 
of action is the most important detail when it comes to assessment. 
However, the assessment tools should be chosen for their ability to 
extract meaningful information from those being assessed, even if it 
requires a non-traditional approach, or more than one instrument to yet 
the information needed to be helpful. Although there are many relevant 
assessment tools and inventories when working with potential dropouts 
(TABS tests, NCFAS, CFARS, etc), often the greatest assessment ``tool'' 
any program has is the professional performing the assessment. A well-
trained professional, armed with no more than a blank sheet of paper, 
can do a wonderful job of initially assessing for a young persons 
condition, home-life, support systems, educational status, interests, 
career goals, and employment status, amongst other things. Using a 
``blank-sheet'' approach to assessment not only deconstructs the 
linear, and oft times tedious process of assessment, it allows for a 
more cyclical approach to the activity.
    Youth at-risk need to experience success in achieving milestones in 
the continuous improvement of their situation, and providers need to be 
able to continually assess for their chancing needs at each plateau. 
Using an approach such as the ``blank-sheet'', in conjunction with 
standard assessment tools, is the kind of strategy that might help get 
professionals out of the linear process of conducting assessments, and 
overcome the myopia that can often be experienced when a specific 
assessment leads to an unambiguous set of challenges that directly 
correlates with an explicit strategy for remediation.

                          AFTER-CARE/FOLLOW-UP

    In my experience, after-care, or follow-up planning has probably 
been the most important, yet under-developed concept when working with 
youth at risk of dropping out. The idea of after-care is monumentally 
important because this is the process when at-risk youth who have 
benefited from programmatic services must now muster the courage to use 
their newfound skills and abilities within their systems, or spheres of 
influence. Many times, there are external pressures, or internal 
embattlements, that preclude youth from utilizing new skills. Within a 
comprehensive after-care plan, service professionals maintain contact 
with youth often enough to know when such difficulties arise, and these 
service professionals would then be in a position to provide assistance 
and facilitate a successful completion.
    For example, a young person who has recently acquired the ability 
to utilize library resources and its' myriad technologies must be able 
to continually access those resources, augment his/her skill set, and 
have an opportunity to display his/her talents or make mistakes in an 
environment that safeguards that particular kind of vulnerability and 
provides for a positive learning experience. Youth who have gained a 
certain rapport with staff of a program sometimes need to return, 
albeit briefly to the forum that encouraged growth and exploration, 
with the individuals who provided the initial support system.
    So many times, if there is a plan for after-care, it is either not 
defined in its' elements and outcomes, or it is of such short duration 
that it renders itself ineffective. In a best-case scenario, all 
dropout prevention programs would have an after-care or follow-up plan 
that was actively engaged, making adjustments to the plan of care, 
until each student involved with the program graduated from high 
school.

                 SYSTEMS OF INTEGRATED SERVICE DELIVERY

    Many schools, community-based organizations, and health and human 
service agencies utilize a system of integrated service delivery; 
however, it is rare for any of these entities to have a communal and 
equal partnership when it comes to their interaction. For many, the 
school cannot be ``all things to all people'', but I believe that the 
schoolhouse is one of the most significant places in our communities 
every day.
    The onus is not, and should not be, solely on the schools and its' 
educators to rectify the dropout problem. The problem is much larger 
than any one school district, agency or individual. But the schools do 
have an undeniable role to play in the amelioration of the phenomenon 
due to the simple fact that all American children are expected to 
attend school from the time they are four or five until they are 
seventeen or eighteen. Most Americans spend nearly a quarter of their 
lives in elementary and secondary schools, so the importance of our 
schools should surprise no one.
    I would assert that an effectual change in the status of our 
dropouts will occur when schools begin to create partnerships where all 
of the stakeholders have ownership in tie education process, and 
subscribe to a school-linked integrated services approach.
    By definition, integrated services are ``the coordinated delivery 
of health, education, prevention and social services designed to 
improve the quality of life for individuals and their families'' (North 
Central Regional Educational Laboratory.) These services can include 
counseling, job placement, literacy remediation, case management, 
health care, mental health services, parenting and parental 
involvement, and mentoring, to name a few.
    The Center for the Future of Children (1992) states:
    ``In a school-linked approach to integrating services for children, 
(a) services are provided to children and their families through a 
collaboration among schools, healthcare providers, and social service 
agencies: (b) the schools are among the central participants in 
planning and governing the collaborative effort: and (c) the services 
are provided at, or are coordinated by personnel located at, the school 
or a site near the school. Most often, the school-linked approach 
requires agencies that typically provide health and social services off 
the school site to move some of their staff and; or services to the 
school. Although school personnel are actively--involved in identifying 
children who need services, they are not typically the actual providers 
of the services'' (p.7)
    Using a system of integrated service, linked with the school system 
through a partnership that stresses mutual ownership, a sharing of 
resources, seamless delivery of service both on site and off, is an 
approach that gives all of the stakeholders involved in youth at-risk 
education an opportunity to effect change within the system. In this 
way, keeping our young people from dropping out of school truly becomes 
a communal effort, where everyone is responsible for our rung people's 
education and everyone is responsible for sustaining the collaborative 
efforts of effective projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 11:27 a.m., the committee was adjourned.]


</pre></body></html>
